<html>
<title> - FUNDING FOR THE AMERICA COMPETES ACT IN THE FISCAL YEAR 2009 ADMINISTRATION BUDGET REQUEST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                  FUNDING FOR THE AMERICA COMPETES ACT
                        IN THE FISCAL YEAR 2009
                     ADMINISTRATION BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2008

                               __________

                           Serial No. 110-76

                               __________

     Printed for the use of the Committee on Science and Technology







     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE

40-599 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


























                            C O N T E N T S

                           February 14, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    12

Prepared Statement by Representative Laura Richardson, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    14

                                Witness:

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy (OSTP); Co-Chair, President's Committee of 
  Advisors on Science and Technology (PCAST)
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    30

Discussion.......................................................    30

              Appendix: Answers to Post-Hearing Questions

Dr. John H. Marburger, III, Director, Office of Science and 
  Technology Policy (OSTP); Co-Chair, President's Committee of 
  Advisors on Science and Technology (PCAST).....................    48






























 
     FUNDING FOR THE AMERICA COMPETES ACT IN THE FISCAL YEAR 2009 
                     ADMINISTRATION BUDGET REQUEST

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 12:00 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Funding for the America COMPETES Act

                        in the Fiscal Year 2009

                     Administration Budget Request

                      thursday, february 14, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 14, 2008, the Committee on Science and 
Technology will hold a hearing to consider how the Administration's FY 
2009 budget proposal addresses programs authorized in the America 
COMPETES Act (P.L. 110-69) within the jurisdiction of the Committee. 
Subcommittees will hold additional hearings regarding specific agency 
budgets, including for the National Science Foundation (NSF), National 
Institute of Standards and Technology (NIST), and Department of Energy 
(DOE).

2. Witness

Dr. John H. Marburger, III is Director of the Office of Science and 
Technology Policy (OSTP). The mission of the office is to serve as a 
source of scientific and technological analysis and judgment for the 
President with respect to major policies, plans, and programs of the 
Federal Government. Dr. Marburger also co-chairs the President's 
Committee of Advisors on Science and Technology (PCAST) and supports 
the President's National Science and Technology Council (NSTC).

3. Overview

    H.R. 2272, the America COMPETES Act (COMPETES) passed the House of 
Representatives (367-57) and the Senate (by Unanimous Consent) on 
August 2, 2007 and was signed into law by the President on August 9, 
2007.
    A response to the 2005 National Academies' report Rising Above the 
Gathering Storm, COMPETES seeks to ensure U.S. students, teachers, 
businesses, and workers are prepared to continue leading the world in 
innovation, research, and technology. The law implements 
recommendations from the Gathering Storm report, and specifically:

        <bullet>  Authorizes $33.6 billion over fiscal years 2008-2010 
        for science, technology, engineering, and mathematics (STEM) 
        research and education programs across the Federal Government;

        <bullet>  Keeps research programs at NSF, NIST and the DOE 
        Office of Science on a near-term doubling path;

        <bullet>  Helps to prepare new teachers and provide current 
        teachers with content and teaching skills in their area of 
        education through NSF's Noyce Teacher Scholarship Program and 
        Math and Science Partnerships Program;

        <bullet>  Expands programs at NSF to enhance the undergraduate 
        education of the future science and engineering workforce, 
        including at two-year colleges;

        <bullet>  Expands early career graduate-level grant programs 
        and provides additional support for outstanding young 
        investigators at NSF and DOE;

        <bullet>  Creates the Technology Innovation Program (TIP) at 
        NIST (replacing the existing Advanced Technology Program or 
        ATP) to fund high-risk, high-reward, pre-competitive technology 
        development with high potential for public benefit;

        <bullet>  Puts the Manufacturing Extension Partnership (MEP), 
        which provides cost-shared technical assistance to small 
        manufacturers to modernize their operations, on a path to 
        doubling over 10 years;

        <bullet>  Establishes an Advanced Research Projects Agency for 
        Energy (ARPA-E), a nimble and semiautonomous research agency at 
        the Department of Energy to engage in high-risk, high reward 
        energy research;

        <bullet>  Includes provisions throughout the bill to help 
        broaden participation by women and minorities in science and 
        engineering fields at all levels; and

        <bullet>  Strengthens interagency planning and coordination for 
        research infrastructure and information technology (i.e., high-
        speed computing).

    The President released his FY 2009 budget proposal on February 4, 
2008. The budget proposes funding increases for physical sciences 
research programs as part of the American Competitiveness Initiative 
(ACI), many of which are consistent with increases authorized in 
COMPETES. However, the Administration's budget ignores or neglects 
several other areas of COMPETES, including math and science education 
activities at NSF, manufacturing and technology stimulus programs at 
NIST, and important energy programs including ARPA-E.

4. Funding for the America COMPETES Act, by Agency

National Science Foundation (NSF)
    The COMPETES Act put NSF on a seven-year doubling path, authorizing 
$7.326 billion in FY 2009. The Administration's FY 2009 request for the 
National Science Foundation is $6.854 billion, $822 million (13.6 
percent) above the FY 2008 level of $6.032 billion.\1\ While the FY 
2008 omnibus gave only a 2.5 percent increase to NSF over FY07, the 
Administration's FY 2009 request reflects a determination to keep NSF 
on a 10-year doubling path proposed under the FY07 American 
Competitiveness Initiative (ACI).
---------------------------------------------------------------------------
    \1\ The expected FY 2008 funding level is $33 million below the 
appropriated level due to a rescission required by the Appropriators in 
the FY 2008 omnibus bill.
---------------------------------------------------------------------------
            Research and Related Activities
    The request for the Research and Related Activities (R&RA) account 
is $5.594 billion, $773 million (16 percent) over the FY 2008 estimate 
of $4.821 billion and $150 million less than authorized in COMPETES. In 
keeping with the Administration's emphasis on the mathematical and 
physical sciences, engineering and computer sciences under the ACI, 
those directorates, in addition to cyberinfrastructure, each see an 
approximately 20 percent increase over FY 2008, while the biological 
sciences (+10.3 percent) and social, behavioral and economic sciences 
(+8.5 percent) see more modest increases. Although the COMPETES Act 
does not assume that all fields will receive equal increases each year, 
the law does specifically call on NSF not to disinvest in the 
biological and social sciences over the long-term.
            K-16 STEM Education Programs
    The COMPETES Act authorized $995 million for the Directorate for 
Education and Human Resources (EHR) in FY 2009. The Administration's FY 
2009 request for EHR is $790.41 million, an increase of $64.81 million 
(8.9 percent) over FY 2008, but still $205 million short of the 
authorized level. Most of the increases authorized in COMPETES were 
directed to two K-12 programs: the Math and Science Partnerships 
Program (MSP), which supports teacher professional development, and the 
Robert Noyce Teacher Scholarship Program, which educates K-12 STEM 
teachers, focusing on both pedagogy and content areas. In the FY 2009 
request, MSP receives a $2.5 million increase to $51 million ($60 
million below the authorized level) and Noyce receives $11.6 million 
($3.5 million below the FY 2008 appropriated level and $103 million 
below the FY 2009 authorized level). (Note: The FY 2009 budget request 
indicates that NSF plans to provide only $10.8 million for Noyce in FY 
2008, despite the omnibus appropriation report's specification of $15 
million.) Two undergraduate programs, the STEM Talent Expansion Program 
and the Advanced Technological Education program, are flat-funded in FY 
2009 despite being authorized for 10 percent increases in COMPETES. The 
Administration's rationale for flat-funding all of these education 
programs and not funding Noyce at the level of the appropriations 
directive is that they have not yet undergone the evaluation required 
under the new Academic Competitiveness Council (ACC) process. (Note: 
With regard to the Noyce program, the ACC is evaluating the program as 
it was implemented in previous years, not the significantly revised 
Noyce program authorized in COMPETES).

National Institute of Standards and Technology (NIST)
    COMPETES put NIST on a ten-year path to doubling, authorizing 
$881.8 million in FY 2009 for research, lab construction, and the 
external industrial technology programs. The President's FY 2009 budget 
requests $638 million for NIST, 16 percent below the FY 2008 estimated 
budget. While the request comes close to the authorized level for NIST 
internal research programs, it eliminates or severely reduces funding 
for the external industrial technology programs. This reflects a 
continued Administration opposition to the industrial technology 
programs.
            NIST Labs and Lab construction
    The NIST internal research laboratories perform research in support 
of measurement science and technology and technical standards 
development. COMPETES put the internal research laboratory account on a 
ten-year path to doubling, authorizing $541.9 million in FY 2009. The 
budget proposal nearly matches this level (falling short by $6.9 
million or 1.3 percent), in keeping with the Administration's emphasis 
under ACI on supporting basic research in the physical sciences. The 
budget proposes $99 million in funds for laboratory construction. In 
addition to COMPETES-authorized funds for basic maintenance and 
completing construction of high-performance laboratory space at the 
NIST campus in Boulder, CO, the budget proposes new funding for an 
expansion of office and laboratory space at JILA, a joint research 
institute operated by NIST and the University of Colorado.
            Technology Innovation Program (TIP)
    The Technology Innovation Program (TIP) was created in COMPETES to 
replace the Advanced Technology Program (ATP). TIP awards cost-shared 
grants to small companies and joint ventures for the development of 
high-risk, high-reward technologies that meet critical national needs, 
and was based in part on Administration proposals for reforming ATP. 
Under the provisions in COMPETES, TIP will continue to fund grants that 
were originally awarded by ATP in 2007, and will make its first round 
of new awards in 2008.
    The Administration's budget proposes zero funding for TIP. The 
Administration justifies the elimination of the program by arguing that 
TIP would support activities that private industry has the means to 
support. The Administration has not provided documentation to support 
this assertion.
            Manufacturing Extension Partnership (MEP)
    The MEP program is a public/private partnership in all 50 states 
and Puerto Rico that provides technical assistance for small 
manufacturers to modernize their operations and adapt to foreign 
competition. MEP Centers are supported by equal contributions from 
federal funds, State funds, and client fees. In FY 2006, MEP clients 
reported increased or retained sales of $6.76 billion, cost savings of 
over $1.1 billion, new client investment of over $1.6 billion, and more 
than 51,000 jobs created or retained.
    The COMPETES Act put the MEP program on ten-year path to doubling, 
authorizing $122 million in FY 2009. The budget proposes only $4 
million for MEP, to be used to close out the program. The 
Administration states that the MEP centers will change to a self-
supporting basis, as the Administration asserts was intended in the 
original authorization. However, the Technology Administration Act of 
1998 (P.L. 105-309) extended the lifetime of MEP Centers indefinitely, 
so long as they receive a positive evaluation through an independent 
review. It is unclear that the Centers can operate on a self-sustaining 
basis, and the Administration has not provided any documents to 
indicate that this would be possible.

Department of Energy
    The FY 2009 Administration request for the entire Department of 
Energy is $25 billion. Of that, approximately $8.6 billion is dedicated 
to non-defense activities in Science, Energy Efficiency and Renewable 
Energy, Nuclear Energy, Fossil Energy and Electricity. The remaining 
$16.4 billion is divided between the nuclear weapons mission, 
environmental cleanup and management of radioactive waste.
            Office of Science
    The FY 2009 budget request for the DOE Office of Science is $4.7 
billion. This represents an increase of $704 million, or 18 percent 
over the FY 2008 enacted level of funding, and $478 million or nine 
percent below funding authorized in COMPETES. (Note: COMPETES includes 
only a top-line authorization level for the DOE Office of Science; it 
is silent on funding for specific research program areas.)
    The request for Basic Energy Sciences (BES) is $1.6 billion, an 
increase of $298 million or 23 percent over enacted FY 2008 funding. As 
the largest program within the Office of Science, BES conducts research 
primarily in the cross-cutting areas of materials and chemical 
sciences, and, based on a series of recent workshops, plans to focus 
more on specific research areas for energy applications.
    The budget would provide $369 million for Advanced Scientific 
Computing Research (ASCR), an increase of $18 million or five percent 
over enacted FY 2008 funding. This includes funds to continue upgrading 
the Leadership Class Facilities at Oak Ridge National Laboratory and 
Argonne National Laboratory.
    Biological and Environmental Research (BER) would receive $569 
million under the President's budget, which is $24 million over current 
year funding. In addition to the role of BER in areas such as genomics, 
climate change research, medical applications, and environmental 
remediation, the FY 2009 request supports continued funding for three 
bioenergy centers established in 2007.
    The FY 2009 funding request for High Energy Physics (HEP) is $805 
million, which is $117 million or 17 percent more than the enacted FY 
2008 level. This program conducts fundamental research in elementary 
particle physics and accelerator science and technology. Funding for 
the NOvA neutrino physics experiment and research in preparation for 
the International Linear Collider at the Fermi National Accelerator 
Laboratory and Stanford Linear Accelerator Laboratory are restored in 
this request.
    Fusion Energy Sciences (FES) receives $493 million, an increase of 
$207 million or 72 percent over enacted FY 2008 funding. Of this 
amount, $214 million is dedicated to restoring funding for the U.S. 
role in the International Thermonuclear Experimental Reactor (ITER). 
Finally, Nuclear Physics (NP) would receive $510 million, an increase 
of $77 million (18 percent) over FY 2008 funding.
            Math and Science Education Programs within DOE
    The DOE Office of Science's Workforce Development for Teachers and 
Scientists (WDTS) program funds a number of math and science education 
programs. The FY 2009 funding request for WDTS is $13.6 million, an 
increase of $5.6 million or 70 percent over enacted FY 2008 funding. 
This includes funding for the National Science Bowl, a math and science 
knowledge competition among high school teams across the country; the 
Science Undergraduate Laboratory Internship (SULI) program, which 
supports students working at DOE National Laboratories in individually 
mentored research experiences; and the DOE Academies Creating Teacher 
Scientists (DOE ACTS) program, which assists educators in improving 
their content knowledge in areas of high importance to DOE missions and 
in becoming contributing researchers in the scientific community.
    Recognizing the importance of K-12, undergraduate, and graduate 
STEM education to the Nation's competitiveness and particularly 
workforce needs in the energy industry, COMPETES directs the DOE Office 
of Science, through a Director of Mathematics, Science and Engineering 
Education, to expand and raise the profile of STEM education activities 
at the Department of Energy. COMPETES directs the Department to 
establish a separate fund using .3 percent of all DOE R&D funds for 
education activities, and provide an accounting of this funding in the 
Administration's budget request. The budget request does provide a 
funding summary for education activities at the Department. However, 
the budget request does not clearly indicate whether a separate fund 
has been established or whether a Director has been named.
    In addition, COMPETES authorizes several STEM education programs 
that are not explicitly funded in the President's budget. These include 
a pilot program of grants to specialty schools for science and 
mathematics, education programs for middle and high school students and 
professional development programs for teachers at National 
Laboratories, and programs to expand research and education at 
universities for nuclear and hydrocarbon (oil and gas) science.
            ARPA-E
    The COMPETES Act authorized the establishment of an Advanced 
Research Projects Agency for Energy, or ARPA-E. ARPA-E was created to 
fund collaborative research and development to overcome long-term or 
high-risk technological barriers in energy technologies that industry 
by itself will not undertake because of technical and financial 
uncertainty. The COMPETES Act authorized $300 million for the initial 
year of ARPA-E's programs. Other legislative proposals establishing 
ARPA-E called for subsequent year's funding as high as $1 billion to 
$1.5 billion. The Administration's FY 2009 budget proposal contains no 
requested funds for ARPA-E. COMPETES also calls for the appointment of 
a Director for ARPA-E, and the legislative report further specifies 
that an Acting Director should be appointed to serve until a Director 
is confirmed by the Senate. The President has not yet appointed an 
Acting Director.
    ARPA-E is intended to be unique not only in the type of research it 
conducts, but also in how it conducts that research. ARPA-E is intended 
to be a nimble and semiautonomous agency within the Department of 
Energy, similar to the Defense Advanced Research Projects Agency at the 
Department of Defense (DARPA). Like DARPA, the Director of ARPA-E 
should establish and monitor project milestones, initiate research 
projects quickly, and just as quickly terminate or restructure projects 
if such milestones are not achieved. Projects are intended to be 
conducted through teams that utilize the talent, resources, and 
facilities found in the Nation's universities, National Laboratories 
and in the private sector. The Director is also given special hiring 
authority to quickly recruit technical staff as program managers on a 
short-term basis, and offer competitive salaries rivaling those of 
industry. The Administration has not moved towards establishing ARPA-E, 
nor do any current or proposed programs at the Department resemble the 
organizational structure or operating principles of ARPA-E as outlined 
in the COMPETES Act.
    Chairman Gordon. This hearing will now come to order. Thank 
you all for your patience. Dr. Marburger, last year we had 
snow. This year we had a memorial service, and I suspect we 
will have some act up as we go through, so we want to be 
courteous to your time and try to move forward; and I am sure 
Mr. Hall will be here soon and add his presence to this good 
hearing.
    Now, last August Congress passed and the President signed 
into law the America COMPETES Act, a response to the 2005 
National Academy Report, ``Rising Above the Gathering Storm,'' 
and supported by a wide-range of U.S. industries, universities, 
and science organizations. COMPETES seeks to ensure U.S. 
students, teachers, businesses, and workers will continue 
leading the world in science innovation, research, and 
technology. And as we know, the global marketplace continues to 
become more competitive. The fact of the matter is, our country 
cannot and should not compete with the rest of the world on 
wages when half the workers in the world make less than $2 a 
day. Our country needs to compete at a higher level and with 
better skills and higher productivity. This was the goal of the 
America COMPETES Act.
    The law presents a balanced set of policies to improve our 
country's short-term and long-term competitiveness. COMPETES 
invests in long-term science and research but also short-term 
technology development and innovation. And just as importantly, 
COMPETES ensures that not only our nation will produce the 
world's leading scientists and engineers but also that all 
students will have a strong grounding in math and science and 
are prepared for technical jobs in every sector of the economy.
    And although the Administration's budget is supportive on 
basic research, it is weak on several other components critical 
to our nation's competitiveness. Unfortunately, our students 
are far from measuring up compared to other industrialized 
countries. According to the latest OECD Program for 
International Students, students in America ranked 25th out of 
30 developed countries in math. In science, the news is just as 
bad. U.S. students ranked 21st in science, down from 19th in 
2003 and 14th in 2000. In fact, 25 percent of U.S. students 
failed to reach even a basic level where they could identify 
scientific concepts or apply data for a personal decision. 
Knowing this, I am deeply disappointed that, yet again, the 
President's budget does make K-12 education programs at NSF a 
priority.
    The top recommendation of the National Academies was to 
ensure K-12 STEM teachers across the country have strong 
content knowledge and effective teaching skills. The National 
Academies' report cited the UTeach program which was developed 
10 years ago at the University of Texas, as an example of what 
is working for STEM teacher education. Based on its success, 
UTeach has been used as a model for the State of California in 
an effort to reform STEM teacher education. Likewise, the 
private sector has pledged significant funding to expand this 
teacher education model nationwide.
    This committee led the way in COMPETES, making this top 
priority and revamping the NSF's Robert Noyce scholarship. But 
under the Administration's budget, the Noyce program would 
receive only 10 percent of the funding needed to mobilize this 
new program.
    COMPETES also seeks to ensure that U.S. companies and small 
businesses lead the world in innovation, creating jobs in the 
process. Our country has lost 3.4 million manufacturing jobs 
since 2000, and 217,000 jobs lost in 2007 alone; and 
manufacturing employment in the U.S. now stands at its lowest 
point since 1950.
    COMPETES seeks to reverse this trend with robust funding 
for the Manufacturing Extension Partnership and Technology 
Innovation Program, both of which have a proven track record 
for return on investment and job creation. However, the 
Administration's budget phases out MEP and eliminates TIP 
immediately. These programs help create good American jobs that 
this budget would put in jeopardy.
    And finally, COMPETES seeks to reduce our dependency on 
foreign energy and address global climate change through 
Advanced Research Projects Agency for Energy, or ARPA-E. 
Modeled after the Defense Department's successful DARPA 
program, ARPA-E is charged with rapidly developing and 
commercializing transformational clean energy technologies 
through collaborative research with universities, our national 
labs, and the private sector.
    Nothing like this research model currently exists within 
the Department of Energy. A successful ARPA-E will stand on its 
own within the Department and have the authority and resources 
to quickly assemble teams to ramp up on research projects that 
neither industry nor the Department will do on its own. A 
successful ARPA-E might just cause us to rethink how we do 
energy research in the United States, and I hope the 
Administration will reconsider its lack of support for this 
program.
    And finally, Dr. Marburger, I appreciate the report on a 
variety of R&D programs included in your written testimony, but 
I also hope that you will address the important COMPETES 
programs authorized by Congress and signed by the President 
within your testimony.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Last August, Congress passed and the President signed into law the 
America COMPETES Act. A response to the 2005 National Academies' report 
Rising Above the Gathering Storm, and supported by a wide range of U.S. 
industries, universities, and science organizations, COMPETES seeks to 
ensure U.S. students, teachers, businesses, and workers will continue 
leading the world in science, innovation, research, and technology.
    As we all know, the global marketplace continues to become more 
competitive. The fact of the matter is, our country cannot and should 
not compete with the rest of the world on wages when half of the 
world's workers earn less than $2 a day. Our country needs to compete 
at a higher level--with better skills and higher productivity.
    This was the goal of the America COMPETES Act.
    The law presents a balanced set of policies to improve our 
country's short-term and long-term competitiveness. COMPETES invests in 
long-term science and research, but also short-term technology 
development and innovation.
    Just as importantly, COMPETES ensures not only that our nation will 
produce the world's leading scientists and engineers, but also that all 
students will have a strong grounding in math and science and are 
prepared for technical jobs in every sector of the economy.
    Unfortunately, although the Administration's budget is supportive 
on basic research, it is weak on several other components critical to 
our country's competitiveness.
    Dr. Marburger, I see in your testimony that you quoted from the 
President's State of the Union Address. Well I would like to quote the 
President's speech as well. The President said that: ``Last year, 
fourth and eighth graders achieved the highest math scores on record.''
    I suppose that's the good news. Unfortunately, the bad news is that 
our students are far from measuring up compared to other industrialized 
countries. According to the latest OECD Program for International 
Students Assessment, or PISA, students in the U.S. ranked 25th out of 
30 developed countries in math.
    In science, the news is just as bad--U.S. students ranked 21st in 
science--down from 19th in 2003 and 14th in 2000. In fact, 25 percent 
of U.S. students failed to reach even a basic level where they could 
identify scientific concepts or apply data to a personal decision.
    Knowing this, I am deeply disappointed that, yet again, the 
President's budget does not make K-12 education programs at NSF a 
priority.
    The top recommendation of the National Academies was to ensure K-12 
STEM teachers across the country have strong content knowledge and 
effective teaching skills. The National Academies' report cited the 
UTeach program, which was developed 10 years ago at the University of 
Texas, as an example of what is working for STEM teacher education.
    Based on its success, UTeach has been used as a model by the State 
of California in an effort to reform STEM teacher education. Likewise, 
the private sector has pledged significant funding to expand this 
teacher education model nationwide.
    This committee led the way in COMPETES, taking this top 
recommendation and revamping NSF's Robert Noyce scholarship. But under 
the Administration's budget, the Noyce program would receive only 10 
percent of the funding needed to mobilize the new program.
    COMPETES also seeks to ensure that U.S. companies and small 
businesses lead the world in innovation, creating jobs in the process. 
Our country has lost 3.4 million manufacturing jobs under this 
Administration's watch, with 217,000 jobs lost in 2007 alone, and 
manufacturing employment in the U.S. now stands at its lowest point 
since 1950.
    COMPETES seeks to reverse this trend with robust funding for the 
Manufacturing Extension Partnership and Technology Innovation Program--
both of which have proven track records for return on investment and 
job creation.
    However, the Administration's budget phases out MEP and eliminates 
TIP immediately. These programs help create good American jobs that 
this budget would put in jeopardy.
    Finally, COMPETES seeks to reduce our dependence on foreign energy 
and address global climate change through an Advanced Research Projects 
Agency for Energy--ARPA-E. Modeled after the Defense Department's 
successful DARPA program, ARPA-E is charged with rapidly developing and 
commercializing transformational clean energy technologies through 
collaborative research with the university and private sector.
    Nothing like this research model currently exists within the 
Department of Energy. A successful ARPA-E will stand on its own within 
the Department, and have the authority and resources to quickly 
assemble teams to crash on research projects that neither industry nor 
the Department will do on their own. A successful ARPA-E just might 
cause us to rethink how we do energy research in the U.S., and the 
Administration should reconsider its lack of support for the program.
    The President is right that basic R&D funding included in his 
American Competitiveness Initiative is important to our economy and our 
future. But I believe the Administration is wrong that we don't also 
need to be committed to a globally competitive workforce, investments 
in small manufacturers that create jobs, and a new approach to cutting 
edge energy research.
    Last year, the President threatened to veto appropriations bills 
that would have come much closer to fully funding COMPETES, as well as 
his ACI. The Administration should listen to the businesses and 
educators and scientists and engineers in this country and support full 
funding of COMPETES this year.
    I look forward to hearing your testimony on these issues.

    Chairman Gordon. And now the Chair recognizes just on cue 
Mr. Hall for his opening statement.
    Mr. Hall. Thank you, Mr. Chairman. You are always on time 
and proper and kind to senior citizens, and I thank you, Mr. 
Chairman, and good morning, Dr. Marburger. It is good to have 
you before us.
    I am sure that we can all agree that striking that delicate 
balance between adequately funding and giving proper funding to 
the Nation's priorities while at the same time exhibiting 
fiscal restraint to reduce the deficit continues to be quite a 
challenge. That is going in both directions at the same time. 
Likewise, I know we also are all in agreement that if we are to 
remain the world leader in competitiveness and innovation, we 
have to make the appropriate investments in research, 
appropriate investments in development, technology, and math 
and science education.
    I am pleased to see the fiscal year 2009 budget request 
gets us back on path to double the funding for physical 
sciences and engineering at the National Science Foundation, 
National Institute of Standards and Technology, and the Office 
of Science at the Department of Energy. Building on the 
President's American Competitiveness Initiative and Republican-
led efforts in the last Congress, we stepped up to the plate 
and enacted the America COMPETES Act last year, authorizing 
increased levels of funding for these agencies. So I am sure 
you share in my surprise and my disappointment when I realized 
that our friends over on the Appropriations Committee did not 
see fit to adequately fund these agencies for this fiscal year. 
The funding they provided was not only 12 percent below the 
level that we authorized in COMPETES, it was six percent below 
the President's fiscal year 2008 budget request levels. This is 
absolutely and just simply unacceptable. The returns that we 
receive from our investments in these agencies far exceeds the 
cost. As I have stated before, whether it is fighting the war 
on terror abroad or at home, ending our dependence on foreign 
oil or inspiring our children to enter high-tech fields so that 
the United States can continue to push the frontiers of 
innovation, these agencies have critical roles to play. The 
budget before us today keeps us moving forward in this regard.
    Dr. Marburger, I am pleased to see boosts in funding for 
several science programs such as the Advanced Energy Initiative 
at DOE which works with solar, biomass, and hydrogen to move us 
toward a more secure energy future. But I do have a couple of 
areas of concern with this budget. There seems to be a number 
of places where the President has repeatedly cut other 
important science and technology programs. The Manufacturing 
Extension Program at NIST, for example, is significantly cut or 
canceled each year. And each year Congress fully funds the 
program. This year again, MEP is zeroed out in the budget.
    As for NASA, while the agency has had modest budget 
increases, they have been insufficient to meet the goals laid 
out in the President's Vision for Space Exploration announced 
at the beginning of 2004. This has resulted in less ambitious 
development schedules for the Shuttle's replacement, and this 
year's budget request does not keep up with inflation. In two 
years' time, we will find ourselves in a situation in which the 
United States will be entirely reliant on other nations for 
access to our multi-billion dollar Space Station. I am 
concerned that America's preeminence in space may be 
jeopardized if we do not narrow the gap between retiring the 
Space Shuttle and developing the Orion and the Ares launch 
vehicles.
    Before yielding back to the Chairman, let me just say a 
word about STEM education in this year's request. I recognize 
and support the President's efforts to improve our STEM 
education, and all of their needs, through the Department of 
Education. There should be more focus there; however, I have 
great concern that this budget does not likewise reflect the 
STEM education responsibilities at the National Science 
Foundation, particularly an expanded Robert Noyce Scholarship 
program.
    Mr. Chairman, I thank you for having this hearing, and I 
certainly thank the presence of the gentleman today who gives 
us his time not only on his way here, preparing to be here, and 
the history of success that he brings to this committee, and I 
look forward to hearing your testimony. Mr. Chairman, once 
again, I yield back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman. Good morning, Dr. Marburger. It's good to 
have you before us this morning.
    I am sure that we can all agree that striking that delicate balance 
between adequately funding our nation's priorities while at the same 
time exhibiting fiscal restraint to reduce the deficit continues to be 
a challenge. Likewise, I know we also are all in agreement that if we 
are to remain the world leader in competitiveness and innovation, we 
must make the appropriate investments in research, development, 
technology, and math and science education.
    I am pleased to see that the FY 2009 Budget Request gets us back on 
a path to double the funding for physical sciences and engineering at 
the National Science Foundation (NSF), the National Institute of 
Standards and Technology (NIST), and the Office of Science at the 
Department of Energy (DOE). Building on the President's American 
Competitiveness Initiative (ACI) and Republican led efforts in the last 
Congress, we stepped up to the plate and enacted the America COMPETES 
Act last year, authorizing increased levels of funding for these 
agencies. So, I am sure you shared my surprise and disappointment when 
I realized that our friends over on the Appropriations Committee did 
not see fit to adequately fund these agencies for this fiscal year. The 
funding they provided was not only 12 percent below the level that we 
authorized in COMPETES, it was six percent below the President's FY 
2008 Budget Request levels. This is simply unacceptable. The returns 
that we receive from our investments in these agencies far exceed the 
costs. As I have stated before, whether it is fighting the war on 
terror abroad or at home, ending our dependence on foreign oil, or 
inspiring our children to enter high-tech fields so that the United 
States can continue to push the frontiers of innovation, these agencies 
have critical roles to play. The budget before us today keeps us moving 
forward in this regard.
    Dr. Marburger, I am pleased to see boosts in funding for several 
science programs such as the Advanced Energy Initiative (AEI) at DOE, 
which works with solar, biomass and hydrogen to move us towards a more 
secure energy future. But, I do have a couple of areas of concern with 
this budget. There seem to be a number of places where the President 
has repeatedly cut other important science and technology programs, in 
effect robbing Peter to pay Paul. The Manufacturing Extension Program 
(MEP) at NIST, for example, is significantly cut or canceled each year. 
And each year, Congress fully funds the program. This year again, MEP 
is zeroed out in the budget.
    As for NASA, while the agency has had modest budget increases, they 
have been insufficient to meet the goals laid out in the President's 
Vision for Space Exploration announced at the beginning of 2004. This 
has resulted in less ambitious development schedules for the Shuttle's 
replacement, and this year's budget request does not keep up with 
inflation. In two years time, we will find ourselves in a situation in 
which the United States will be entirely reliant on other nations for 
access to our multi-billion dollar Space Station. I am concerned that 
America's preeminence in space may be jeopardized if we do not narrow 
the gap between retiring the Space Shuttle and developing the Orion and 
Ares launch vehicles.
    Before yielding back to the Chairman, let me say a word about STEM 
education in this year's request. I recognize and support the 
President's efforts to improve our STEM education needs through the 
Department of Education. There should be more focus there; however, I 
have great concern that this budget does not likewise reflect the STEM 
education responsibilities at the National Science Foundation, 
particularly an expanded Robert Noyce Scholarship program.
    Thank you for coming up here today. I look forward to your 
testimony, and I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall. If there are other 
Members who wish to submit written opening statements, we will 
submit it for the record at this time.
    [The prepared statement of Ms. Richardson follows:]
         Prepared Statement of Representative Laura Richardson
    Thank you Chairman Gordon for holding this important hearing today. 
I would also like to thank Dr. John H. Marburger III, Director of the 
Office of Science and Technology Policy for attending today's hearing.
    In my written remarks for yesterday's hearing on NASA's FY '09 
budget I mentioned how the ``America COMPETES Act'' will help us 
maintain our nation's role as leaders in the Science, Technology, 
Engineering, and Mathematics fields. The bipartisan manner in which 
``America COMPETES'' passed both the House and Senate reflects the 
urgent need to preserve and expand the innovative spirit that makes 
America great.
    I want to thank Chairman Gordon, and Ranking Member Hall for their 
leadership and hard-work in getting that bill passed. The $33.6 billion 
authorized in ``America COMPETES'' is just the beginning of Congress's 
steadfast commitment to implementing the recommendations made in the 
``Gathering Storm'' report.
    However, implementing the recommendations is just the first step. 
Fully funding those recommendations is essential to the future 
performance of American students in the STEM fields. Unfortunately 
American students rank 25th and 21st out of 30 countries in math and 
science respectively.
    Therefore given the current funding recommendations, I am concerned 
with our ability to fulfill the goals of the COMPETES Act.
    Naturally that commitment begins in the classrooms of our 
elementary schools, middle schools, and high schools. Providing the 
necessary professional development to our teachers so they are not only 
competent but energized about their field of practice will benefit 
American students who will hopefully share in that teacher's enthusiasm 
for physics, biology, chemistry, or any other STEM field.
    In addition to the educational aspects of ``America COMPETES,'' the 
opportunity that this legislation provides for energy independence is 
crucial to our national security. I am confident that the ``Advanced 
Research Projects Agency for Energy'' will in due time accomplish the 
goals that they were tasked to achieve.
    The policy behind ``America COMPETES'' is sound policy. Innovation 
and ingenuity made this country great, therefore any role that I can 
play to ensure that American students, scientist and engineers continue 
to compete at the highest level is a role and a responsibility that I 
wholeheartedly embrace.
    Mr. Chairman I yield back.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    To maintain America's competitiveness in science and technology, we 
must do more than merely keep up. We must lead, and commit ourselves to 
providing the resources necessary to keep us at the forefront of this 
kind of cutting edge research and development.
    I'm very proud of the America COMPETES Act, this committee's 
bipartisan legislation that got signed into law last August. This law 
ensures that our students, teachers, businesses, and workers are 
prepared to lead in science and technology.
    However, the America COMPETES Act can only be successful if it's 
funded adequately.
    While I appreciate that the President has expressed his support for 
America COMPETES and mentioned it as a priority in the State of the 
Union, I am concerned that the Administration's budget request does 
provide sufficient funding for all of the programs in America COMPETES.
    I find the insufficient funding for math and science education 
particularly alarming. As a former teacher, I know first-hand how 
important it is to expose our children to STEM education. The future of 
American competitiveness in science and technology is heavily dependent 
on ensuring the involvement of future generations.
    I look forward to hearing from our witness.
    I yield back.

    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I am pleased that Dr. Marburger is with us today to discuss how the 
Administration's FY09 budget proposal impacts the programs authorized 
by the 2007 COMPETES Act. Framing this hearing in the context of the 
COMPETES Act is appropriate, given the strong bipartisan support for 
the bill, and the fact that the bill is an authorizing measure and we 
are an authorizing committee.
    There are many programs authorized in COMPETES on which the 
Congress and the Administration do not necessarily see eye-to-eye. One 
of these areas includes the Technology Innovation Program (formerly 
ATP) and Manufacturing Extension Partnership (MEP) program at the 
National Institute of Standards and Technology (NIST). I am 
disappointed that the FY09 request for these programs is substantively 
zero despite the COMPETES authorization, historically strong support 
from the Congress, and demonstrated results from these programs. I 
mention this today, although I know we will hold a separate hearing on 
the NIST budget, because I believe that the opposition to these 
programs originates with OSTP and not internal to NIST.
    Nonetheless, I am overall very pleased to see that the President 
has been unwavering in his commitment to fulfilling the American 
Competitiveness Initiative. He has consistently affirmed the pathway he 
provided in 2006 for bolstering the funding for basic research at the 
National Science Foundation, NIST and the Department of Energy in his 
last three budgets. I am hopeful that we can find some common ground on 
the COMPETES programs and ultimately ensure that the actual funding 
reinforces the authorizations.

    Chairman Gordon. Dr. Marburger, as you can see, there are 
some differences on this committee, but we are, I think, in 
unison on many, many areas. We welcome you here. Let me 
introduce Dr. Marburger to Laura and some of the new Members of 
our committee. He is the Director of the Office of Science and 
Technology Policy. He serves as the Science Advisor to the 
President and also co-chairs the President's Committee of 
Advisors on the Science and Technology and supports the 
President's National Science and Technology Council. Dr. 
Marburger, we welcome you here.

 STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, OFFICE OF 
  SCIENCE AND TECHNOLOGY POLICY (OSTP); CO-CHAIR, PRESIDENT'S 
    COMMITTEE OF ADVISORS ON SCIENCE AND TECHNOLOGY (PCAST)

    Dr. Marburger. Thank you very much, Chairman Gordon, 
Ranking Member Hall, Members of the Committee. It is a pleasure 
for me to appear before you in this hearing once again on 
funding for the America COMPETES Act in the President's fiscal 
year 2009 Research and Development Budget. My written testimony 
has a lot of detail about the overall fiscal year 2009 research 
and development budget, so I will confine my oral remarks to 
the specific questions you asked me in the invitation.
    Chairman Gordon. Thank you.
    Dr. Marburger. First, let me express my gratitude to this 
committee for its support of the President's America 
Competitiveness Initiative and for its work on the very 
important COMPETES Act. This Act embraces recommendations from 
a wide range of scientists, businesses, and education leaders 
and their many organizations who believe federal actions are 
needed to ensure America's future leadership in science and 
engineering, fields which are essential to the processes of 
innovation that lead to long-term economic competitiveness.
    [Slide]
    I have on the screen a proclamation signed by almost 300 of 
those leaders.
    I look forward to working together with this committee to 
achieve the goals of the ACI and the COMPETES Act.
    You asked me how the President's budget addresses programs 
in the COMPETES Act within the jurisdiction of this committee. 
Because these details are spread throughout my written 
testimony and the Fiscal Year 2009 Budget Proposal document 
which is on line this year, not even available as a book, my 
office has prepared a one-page table that summarizes the 
numbers that you asked for, and I just show a picture of the 
table. I am not going to reference this table, but you will 
have copies of that that gives you a detailed accounting for 
how the COMPETES Act fares in his 2009 budget request.
    So first of all, let me talk about the bottom line. Of the 
$13.8 billion authorized for fiscal year 2009 in the Act, the 
President's budget funds $12.2 billion or 85 percent of the 
authorized. This total compares favorably with the 82 percent 
level at which Congress funded the Act within the fiscal year 
2008 omnibus bill.
    [Slide]
    And the next slide shows a chart. The blue bars are the 
authorized amounts, the red bar is the omnibus level of 
appropriation for COMPETES funding, the green bar--so the bars 
on the left are for '08, the bars on the right are for '09. The 
green bar represents the President's request as a fraction of 
what was authorized. It is--I think it is 85 percent of 
authorized compared with the 82 percent that was appropriated 
last year.
    If the President's request is funded, COMPETES Act budgets 
would grow by almost 15 percent under this budget. To place 
this in context, the President's overall request for all non-
defense R&D increases by six percent, compared with the 
remainder of the non-security discretionary budget which 
increases by less than one percent in this request. In constant 
dollars, growth and outlays in the non-defense R&D budget have 
increased by nearly a third under this Administration.
    [Slide]
    My slide before you shows the growth in non-defense, 
inflation-adjusted dollars for federal R&D. Total federal R&D 
in the 2009 Budget Request stands at $147 billion, an increase 
of $4 billion over last year's appropriated, which represents 
$1 out of every $7 requested by the President in the 
discretionary budget and the growth of 61 percent compared with 
2001.
    These figures express the strong priority the President 
places on research and development. Even a 14 percent growth in 
COMPETES funding is not enough to cover everything authorized 
under the Act. And so the President's request follows well-
defined priorities. The Administration has accepted the 
conclusions of many studies and reports that funding for ACI 
basic research is most important and needs to be addressed 
first.
    The order in which you asked about specific programs in 
your invitation to this hearing is exactly the order of 
priority with which they are treated the President's request. 
Research in physical sciences comes first with increases of 
approximately 20 percent in this area for each of the National 
Science Foundation, Department of Energy's Office of Science, 
and National Institutes of Standards and Technology. Math and 
science education activities at NSF, the next priority, are 
also scheduled to increase. The NSF Education and Human 
Resources budget would grow by about nine percent, and 
according to NSF's budget detail, education-related activities 
and other divisions would also grow. I should also mention that 
increases in COMPETES-related programs at the Department of 
Education are scheduled to increase by $143 million which is a 
very substantial increase over the fiscal year 2008 omnibus 
funding.
    These are the top priority areas. In view of the very 
serious under funding of the top category of research in the 
fiscal year 2008 omnibus and the urgent need to close the gap 
in this area, it was not possible to fund the remaining lower 
priorities within the constraints of this budget.
    Mr. Chairman and Members of the Committee, I believe the 
President's budget proposal is a very strong one for science 
and is responsive to the goals and priorities expressed in the 
America COMPETES Act. This is the third year in which the 
President is proposing a budget that would substantially 
strengthen America's long-term competitiveness in a globalized 
high-technology world economy, and I hope that our joint 
efforts this year will lead to a Fiscal Year 2009 Budget that 
finally addresses the priorities that were established so long 
ago with such strong bipartisan support from such a wide array 
of constituencies. My written testimony contains much more 
detail, and I ask that it be made part of the record for this 
hearing. Thank you very much.
    [The prepared statement of Dr. Marburger follows:]
              Prepared Statement of John H. Marburger, III
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
I am pleased to appear before you once again to present the President's 
Fiscal Year 2009 research and development (R&D) budget. In the eighth 
and final year of this Administration, this hearing provides an 
opportunity to take stock of how far we have come, where we are today, 
and, most importantly, what remains to be done for U.S. science and 
technology. Exactly one year ago today, I came before this committee 
seeking your support for the American Competitiveness Initiative (ACI). 
With Congressional passage and enactment of the America COMPETES Act, 
you delivered that support.
    Now I am asking for your help again. The basic research programs 
prioritized in the ACI and authorized in the America COMPETES Act 
remain in an under-funded state relative to their importance for the 
long term strength of our nation's economy. The National Science 
Foundation, the Department of Energy's Office of Science, and the 
National Institute of Standards and Technology's core lab research and 
facilities provide basic research infrastructure for every field of 
science, and produce the new knowledge that make technology 
breakthroughs possible. This committee has a commendable history of 
bipartisan support for science funding, for effective advocacy of basic 
scientific research, and for its technical applications that benefit 
every part of our society. On behalf of the Administration, I thank the 
Committee for the good working relationship it has established with the 
science agencies and with my office, and look forward to campaigning 
together for robust funding of our mutual innovation and 
competitiveness agenda.
    Overall, federal R&D in the 2009 Budget is $147 billion, $4 billion 
more than FY 2008. That represents one out of every seven dollars 
requested by the President in the discretionary budget. This total 
exceeds the Fiscal Year 2001 amount by $56 billion and represents 
growth of 61 percent since then. Over these eight years, the cumulative 
federal R&D investment will total over $1 trillion.
    The growth in non-defense R&D is even more dramatic in the 2009 
Budget. The President is seeking a six percent increase in this 
category. By comparison, the remainder of the non-security 
discretionary budget is up less than one percent. And I draw your 
attention to the chart of federal non-defense spending over time. (see 
Attachment #1) With the 2009 Budget, real growth in outlays for the 
conduct of non-defense R&D, with the effect of inflation factored out, 
is up 31 percent in eight years. Real non-defense R&D growth for the 
previous eight years was 11 percent. The President's commitment to the 
government's R&D enterprise is strong, and the advancement of science 
remains among his top budget priorities.
    The most recent and dramatic evidence of this commitment can be 
found once again in the President's State of the Union address last 
month. In the President's words:

         ``To keep America competitive into the future, we must trust 
        in the skill of our scientists and engineers and empower them 
        to pursue the breakthroughs of tomorrow. Last year, Congress 
        passed legislation supporting the American Competitiveness 
        Initiative, but never followed through with the funding. This 
        funding is essential to keeping our scientific edge. So I ask 
        Congress to double federal support for critical basic research 
        in the physical sciences and ensure America remains the most 
        dynamic nation on Earth.'' (see Attachment #2)

    Increased funding for critical basic research in the physical 
sciences is my highest budget priority. This committee has led by fully 
authorizing these basic research increases in the bipartisan America 
COMPETES Act. We now must succeed in implementing ACI/COMPETES with 
actual funding. If we fail, it will significantly impair and delay all 
our efforts to strengthen long-term economic competitiveness through 
innovation-enabling basic research in the physical sciences and 
engineering. Lost research time delays innovations, slows development, 
misses market opportunities, and costs jobs and economic growth.

America COMPETES Act: With respect to programs authorized by America 
COMPETES in the President's Budget, the Administration's approach is 
straightforward: among the many activities in the bill, establish 
priorities to ensure that limited resources are allocated where they 
are needed most. To this end, the Administration has accepted the 
conclusions of many studies and reports that funding for ACI basic 
research is most important and needs to be addressed first. This 
prioritization reflects a broad endorsement by the business and 
academic communities, most recently as part of last year's ``American 
Innovation Proclamation,'' which states as its first conclusion that 
``Congress must act to: Renew America's commitment to discovery by 
doubling the basic research budgets at the National Science Foundation, 
the National Institute of Standards and Technology, the Department of 
Energy's Office of Science and the Department of Defense.'' (see 
Attachment #3)
    Prioritizing within the constraints of budget realities necessarily 
means that some of the programs and activities authorized in America 
COMPETES could not be requested in this Budget. (see Attachment #4) The 
lack of funding in the FY 2008 Omnibus appropriations bill for the 
priority basic research increases authorized in the COMPETES Act makes 
it even more imperative to address these priorities in the forthcoming 
fiscal year. The President signalled this policy when he signed America 
COMPETES in August of last year, stating that ``These new programs . . 
. and excessive authorizations will divert resources and focus from 
priority activities aimed at strengthening the basic research that has 
given our nation such a competitive advantage in the world economy. 
Accordingly, I will request funding in my 2009 Budget for those 
authorizations that support the focused priorities of the ACI, but will 
not propose excessive or duplicative funding based on authorizations in 
this bill.'' (see Attachment #5)
    As just one example of this prioritization, the Budget does not 
request funding for the Advanced Research Projects Agency (ARPA-E) or 
new math and science education programs at the Department of Energy. 
This is because the Administration believes very strongly that the 
basic research programs at the DOE Office of Science are a higher 
leverage investment and in greater need of funding than new DOE 
programs, especially given the devastating impacts of last year's 
Omnibus appropriations bill on this agency. However, the President has 
requested money for programs such as Math Now, confirming the 
importance of improving students' access to rigorous and challenging 
math classes.

Earmarks: Before summarizing this year's research budget, because 
research earmarks returned in the 2008 appropriations, I want to 
express my concern about the very serious deleterious impacts earmarks 
have on the science budget. I make these remarks knowing that this 
committee fully understands the impact of the problem and supports best 
practices in the allocation of research funding.
    In FY 2008, DOD basic and applied research earmarks total about 
$1.1 billion (about one-sixth of DOD research's total budget); $124 
million of the DOE Office of Science is earmarked; and $83 million in 
earmarks and unrequested grants seriously dilute the core research and 
facilities proposed at the National Institute of Standards and 
Technology. Altogether, research earmarks are estimated at $2 billion 
of the $16.8 billion of overall appropriations earmarks government-wide 
in FY 2008. In nominal terms, this is more than the $1.8 billion 
increase in the overall FY 2008 Federal Science & Technology budget and 
earmarks therefore result in an actual real cut in merit-reviewed 
research at the agencies that are included in the FS&T budget. As we 
discuss the importance of pursuing the best science to contribute to 
U.S. competitiveness, I hope the Congress will significantly reduce 
research earmarks in the FY 2009 appropriations process, as it did in 
fiscal year 2007. Earmarks that divert funding from a merit-based 
process undermine America's research productivity. The Administration 
commends Congress for not subjecting NSF and the National Institutes of 
Health to this debilitating practice. It is now time to end this 
practice for all research programs.

Basic Research: Turning to overall Basic Research in the 2009 Budget, 
$29.3 billion is requested, an $850 million increase. Since the effect 
of FY 2008 earmarks only enhance this difference and make the real 
programmatic increases even bigger, in my view this is a clear 
indication of the Administration's strong focus on fundamental research 
and the discovery of new knowledge as a leading mission of the Federal 
Government. I want to emphasize that this favorable treatment of Basic 
Research is occurring in a year of spending reductions for many other 
domestic programs, indicating the high priority this Administration 
places on the importance of this activity.

ACI: As described above, the centerpiece of the Administration's Basic 
Research agenda is the American Competitiveness Initiative. The 2009 
Budget calls for a 15 percent or $1.6 billion increase for the ACI's 
three priority science agencies: the National Science Foundation; DOE's 
Office of Science; and the laboratories of the National Institute of 
Standards and Technology. This level of total funding, $12.2 billion, 
is necessary to restore the doubling path we all committed to last 
year.
    I know this committee is as disappointed as I am at the current 
shortfall. In order not to lose yet another year of enhanced and 
expanded high-impact innovation research, this year Congress must 
complete the FY 2009 process on time.
    In addition, planned basic research at the Department of Defense 
will grow by $270 million over the FY 2008 request--a 19 percent 
increase, yielding a total of $1.7 billion--consistent with the 
President's commitment to support high value research in the physical 
sciences. These investments are made to support national security but, 
due to the broad effects of basic research, also contribute to ACI 
innovation goals as well.

Climate Science: While long-term innovation and competitiveness are the 
priority drivers in the 2009 Federal R&D budget, other science areas 
remain very important to our nation's goals. Since FY 2001, the 
Administration will spend approximately $14.6 billion on climate change 
science research through the multi-agency Climate Change Science 
Program, and the President's 2009 CCSP budget exceeds $2 billion, a 12 
percent increase over FY 2008 enacted. The U.S. leads the world in 
advancing climate change policy and programs, with planned expenditures 
of nearly $9 billion in climate-related science, technology, 
international assistance, and tax incentive programs proposed in FY 
2009--much more than any other country and a nine percent increase over 
2008 enacted levels.

Advanced Energy Initiative: The 2009 investment of $3.2 billion in 
energy-related science and technology, a 25 percent annual increase of 
the Advanced Energy Initiative, will keep us on track to meet the 
President's goal of reducing greenhouse gas intensity 18 percent by 
2012 and on an achievable path to energy independence. Perhaps most 
critically, the 2009 AEI includes over $788 million in basic research 
at DOE's Office of Science, a 55 percent increase, to overcome major 
technical barriers to the use of solar energy, cellulosic ethanol, 
energy storage, hydrogen fuel cells, and fusion energy, including 
critical commitment support for the ITER international fusion energy 
research project. Before leaving this topic I should note that ITER 
represents a long-term solution to an energy future without fossil 
fuel, and I was alarmed to learn that the FY 2008 Omnibus eliminated 
the U.S. contribution to this international project.

Earth Observations and Ocean Initiative: In other programs relevant to 
the environment, the 2009 Budget includes increased funding for a 
number of Earth Observations programs, most notably $74 million for the 
National Oceanic and Atmospheric Administration to sustain the highest 
priority climate measurement capabilities that once were part of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) program, and $103 million for NASA to embark on the new series 
of space-based Earth observing missions recommended by the National 
Research Council's recent Earth Sciences Decadal Survey. A new National 
Land Imaging Program office to ensure long-term continuity of multi-
spectral imaging of the Earth's surface is established in the U.S. 
Geological Survey. This year's Budget again includes the 
Administration's Ocean Initiative, which calls for $84 million in 2009 
funding for ocean science and research at NOAA, NSF and the USGS.

Biomedical research: The Budget sustains biomedical research at the 
current FY 2008 level of $29.3 billion in the 2009 NIH Budget. The 
Budget includes an additional $38 million, an eight percent increase, 
for the NIH Common Fund, bringing the total to $534 million for this 
interdisciplinary incubator for new ideas and initiatives that will 
accelerate the pace of discovery across the NIH Institutes and Centers. 
The 2009 Budget also includes increased funding to assist young 
scientists as they begin their independent research careers. The 
Pathway to Independence program is funded at a total of $71 million to 
lower the age at which young scientists get their first grant award and 
to encourage future generations to pursue careers in science. With the 
2009 Budget, NIH discretionary budget authority is $8.9 billion, or 44 
percent, higher than eight years ago, more than the 31 percent average 
for all federal S&T.

Information Technology: President Bush's FY 2009 Budget of $3.5 billion 
for Networking and Information Technology R&D (NITRD) represents a 
doubling since 2001. This brings the eight year total investment in 
this area to more than $20.9 billion. The 2009 Budget emphasizes the 
NITRD priorities of high-end computing R&D and infrastructure, advanced 
networking, and cyber security and information assurance. The tools and 
capabilities that result from the NITRD program affect every area of 
science and technology and enhance the Nation's competitiveness.

Nanotechnology: This Administration's National Nanotechnology 
Initiative (NNI) continues strong with over $1.5 billion in FY 2009 for 
this well-coordinated multi-agency, investment in fundamental research, 
multi-disciplinary centers of excellence, and development of focused 
cutting-edge research and education infrastructure. With the 2009 
request, nearly $10 billion will have been invested in nanoscale R&D in 
seven years. The NNI includes important research on the societal 
implications of nanotechnology, including human and environmental 
health and methods for managing potential risks.

AGENCY BUDGET HIGHLIGHTS

National Science Foundation (NSF):
    Funds are requested to increase the budget for NSF to $6.85 billion 
in FY 2009, 14 percent or $822 million above 2008's $6.03 billion. As 
one of the three key agencies in the American Competitiveness 
Initiative, NSF is the primary source of support for university and 
academic research in the physical sciences, funding potentially 
transformative basic research in areas such as nanotechnology, advanced 
networking and information technology, physics, chemistry, material 
sciences, mathematics and engineering. The NSF physical sciences 
directorates receive increases of about 20 percent.
    NSF leads two previously mentioned Administration priority research 
areas that promise to strengthen the Nation's economy: the National 
Nanotechnology Initiative (NNI) and the Networking and Information 
Technology R&D program (NITRD). NSF-funded nanotechnology research, 
sustained at $397 million in FY 2009, a 165 percent increase since 
2001, has advanced our understanding of materials at the molecular 
level and has provided insights into how innovative mechanisms and 
tools can be built atom by atom. This emerging field holds promise for 
a broad range of developing technologies, including higher-performance 
materials, more efficient manufacturing processes, higher-capacity 
computer storage, and microscopic biomedical instruments and 
mechanisms. NSF's investments in NITRD, funded at $1.1 billion in 2009, 
up $159 million over 2008 and 71 percent since 2001, support all major 
areas of basic information technology (IT) research. NSF also 
incorporates IT advances into its scientific and engineering 
applications, supports using computing and networking infrastructure 
for research, and contributes to IT-related education for scientists, 
engineers, and the IT workforce. NSF will continue to support the 
development of a petascale computing capability widely accessible to 
the science and engineering community. A new $20 million cross-
Foundation investment that is part of both the NNI and NITRD, Science 
and Engineering Beyond Moore's Law, is a multi-disciplinary effort to 
advance the fundamental science and technology of semiconductor 
electronics.
    The 2009 NSF Education and Human Resources (EHR) budget will 
continue efforts to prepare U.S. students for the science and 
engineering workforce with a nine percent overall increase (+$65 
million) over the level in the 2008 Omnibus. Specifically, the 2009 EHR 
Budget provides a five percent increase for the Math and Science 
Partnerships program at NSF, and a seven percent increase for the Noyce 
Scholarship program. NSF-wide Graduate Research Fellowships are 
proposed for a 32 percent increase and will support an additional 700 
graduate students.
    NSF's investment in Cyber-enabled Discovery (CDI), begun in FY 
2008, more than doubles for a total of $100 million in FY 2009. The CDI 
investment promotes the advancement of science and engineering along 
fundamentally new pathways opened by computational thinking.
    NSF will continue to fund research on cyber security foundations, 
network security, and systems software that supports the objectives of 
the Federal Plan for Cyber Security and Information Assurance Research 
and Development. Emphasis will be placed on usability, privacy, and 
theoretical foundations.

Department of Energy (DOE):
    DOE is the lead agency for the President's Advanced Energy 
Initiative (AEI), highlighted above. The 2009 AEI Budget proposes:

        <bullet>  $588 million for the Coal Research Initiative, R&D 
        focused on coal gasification and carbon sequestration processes 
        and systems, including $156 million for the FutureGen program 
        to demonstrate these technologies;

        <bullet>  $343 million for biomass R&D to help enable 
        cellulosic ethanol to become practical and competitive;

        <bullet>  $225 million for solar R&D to accelerate development 
        of cost-effective photovoltaic materials;

        <bullet>  $221 million for R&D on hydrogen fuel cells and 
        affordable hydrogen-powered cars;

        <bullet>  $101 million for R&D of hybrid electric systems 
        including $48 million for high-energy, high-power batteries for 
        hybrid-electric and ``plug-in'' hybrid vehicles;

        <bullet>  $53 million for wind energy research to help improve 
        the efficiency and lower the costs of wind technologies for use 
        in low-speed wind environments;

        <bullet>  $30 million for geothermal research; and

        <bullet>  $544 million for the GNEP and Nuclear Power 2010 
        initiatives to demonstrate advanced fuel cycle technologies, to 
        expand the domestic use of nuclear power, and to provide for 
        safe, environmentally responsible global nuclear energy systems 
        that support nonproliferation objectives.

    Full funding of $215 million for the U.S. contribution to the ITER 
international fusion energy project is imperative to meet our 
international commitment.
    The Office of Science in DOE (DOE SC) is another of the three 
priority research agencies in the President's American Competitiveness 
Initiative, providing many of the major cutting-edge scientific 
facilities and labs for a wide range of basic research related to 
potentially significant economic innovations. The 2009 Budget provides 
$4.72 billion for DOE SC, an increase of 19 percent over the FY 2008 
omnibus. The Budget includes funding for priorities such as 
nanotechnology ($300 million), materials science research facilities 
($719 million), basic research in support of hydrogen production, use 
and storage ($75 million), the advanced energy initiative including 
electrical battery storage and an advanced nuclear fuel cycle ($788 
million), and advanced scientific computing facilities and research 
($368 million). The Budget also includes funding ($93 million) to begin 
construction of the National Synchrotron Light Source II, a new x-ray 
light source that will enable the study of materials properties and 
functions at a level of detail and precision (nanoscale) never before 
possible. It continues support for construction of the Linac Coherent 
Light Source ($37 million)--a materials research facility that will 
provide laser-like x-rays allowing an unprecedented real-time glimpse 
of chemical and biological processes, fully funds operations for the 
five nanoscale science research centers, and provides $29 million for 
the upgrade of the Continuous Electron Beam Accelerator Facility.

National Institute of Standards and Technology (NIST):
    The Department of Commerce's NIST ``core'' research and facilities 
receive $635 million in 2009, an increase of 22 percent over the 2008 
Omnibus after accounting for earmarks and unrequested grants. In 2009, 
the American Competitiveness Initiative proposes NIST funding increases 
of nearly $115.2 million from the 2008 enacted level (excluding 
earmarks and unrequested grants) for new initiatives in research and 
measurements in high-leverage areas such as nanotechnology 
manufacturing; expanding NIST's neutron facility to aid in 
characterizing novel materials in high-growth research fields; and 
improving our understanding of complex biological systems to accelerate 
innovations and enable investment in biosciences, including disease 
diagnosis and treatment.

Department of Education (ED):
    ED is the lead agency for academic competitiveness and the 
President requested the following under America COMPETES authority:

        <bullet>  $95 million for the Math Now program which authorizes 
        competitive grants to improve instruction in mathematics for 
        students in kindergarten through 9th grade. Grantees will 
        implement research-based mathematics programs to enable all 
        students to reach or exceed grade-level achievement standards 
        and prepare them to enroll in and pass algebra courses.

        <bullet>  $70 million under the America COMPETES Act for a new 
        vision for advanced placement, as embodied in the President's 
        American Competitiveness Initiative, the purpose of which is to 
        support State and local efforts to increase access to advanced 
        placement classes and tests for low-income students in order to 
        better prepare them for success after high school. The new 
        authority targets federal support more specifically on the 
        preparation of teachers to teach classes in the critical 
        subjects of mathematics, science, and the critical foreign 
        languages, and on encouraging more students from high-need 
        schools to take and pass AP and IB courses and tests in those 
        subjects.

        <bullet>  $24 million for Foreign Language Partnerships, which 
        is part of the Administration's National Security Language 
        Initiative. These funds would support partnerships between 
        institutions of higher education and school districts, in order 
        to increase the number of American students who are proficient 
        in languages that are critical foreign languages to national 
        security.

    The President's American Competitiveness Initiative also called for 
the creation of an Adjunct Teacher Corps to support qualified math and 
science professionals to become adjunct high school teachers. The 
President's 2009 Budget requests $10 million for this program.
    Additionally, the President's National Mathematics Panel will issue 
the final report within the next month. The panel's recommendations 
will help teachers teach all K-7 students pre-algebraic concepts so 
that every student can take and pass more rigorous courses in middle 
and high school, particularly Algebra I in middle school and Algebra II 
in high school.
    In general, the 2009 Budget does not support significant expansion 
of STEM education programs that are housed outside the Department of 
Education. The Administration believes that the mission agencies should 
be focused on the R&D components of ACI.

National Aeronautics and Space Administration (NASA):
    The President's 2009 Budget for NASA is $17.6 billion, a three 
percent increase over FY 2008, reflecting a steady commitment by the 
Administration to the continued pursuit of the Vision for Space 
Exploration and to using the Shuttle to assemble the International 
Space Station until the Shuttle retires in 2010. Maintaining NASA 
budget appropriations is extremely important for the continued 
viability of its programs.
    In 2009, NASA requests $3.5 billion in direct costs for exploration 
systems including the Orion Crew Exploration Vehicle (CEV) and the Ares 
I launch vehicle that will carry astronauts to the Moon. 2009 will see 
the Ares I-X test flight, the first test flight of the Ares I launch 
vehicle. Ares I-X will involve a first stage with a functional four 
segment solid rocket booster and an inactive fifth segment, and an 
upper stage mass simulator. Ares I-X will test first-stage flight 
dynamics, controllability, and separation of the first and upper 
stages. Having already initiated the acquisition process for certain 
elements of this architecture during 2006, NASA now has all Orion CEV 
and Ares I elements under contract with the first crewed-flight planned 
to occur in 2015.
    The 2009 Budget requests $4.44 billion in direct costs to continue 
operating the nearly 60 spacecraft of NASA's Science Mission 
Directorate and to support investments in future Earth and space 
science missions, vital technologies, and frontier research. NASA will 
launch seven new Earth observing missions in the next several years, 
including projects such as the Landsat Data Continuity Mission and the 
Global Precipitation Measurement mission. In a significant new 
initiative, NASA also will embark upon a series of high-priority, 
space-based Earth observing missions, informed by the recommendations 
of the National Research Council's recent Decadal Survey on earth 
sciences. At the same time, NASA will continue its roles in the 
interagency Climate Change Science Program and the international 
initiative on the Global Earth Observing System of Systems. NASA will 
expand its program of scientific exploration of the Moon through a new 
series of low-cost robotic missions that will advance our knowledge of 
Earth's closest neighbor as we prepare for a human return to the Moon. 
Following up ongoing missions to Mars, Saturn and Mercury, NASA also 
will send ever-more-capable spacecraft to Mars and other outer planets. 
In addition, NASA will continue its vibrant astrophysics and astronomy 
efforts through programs such as Beyond Einstein and the Great 
Observatories, and will upgrade the Hubble Space Telescope in late 2008 
to provide five more years of productive on-orbit life. NASA also will 
maintain its important heliophysics research through projects such as 
the Radiation Belt Storm Probes.
    In December 2007, the President approved the Nation's first 
National Plan for Aeronautics R&D and Related Infrastructure. 
Consistent with this Plan, the 2009 NASA aeronautics budget prioritizes 
fundamental aeronautics research, the improvement of aviation safety, 
and research supporting the development of the Next Generation Air 
Transportation System. In addition, NASA will continue to address 
infrastructure upgrades and maintenance requirements for aeronautical 
test facilities across NASA centers that are of vital importance to the 
Nation. The 2009 budget requests $447 million for NASA aeronautics 
direct costs.

National Oceanic and Atmospheric Administration (NOAA):
    For NOAA in the Department of Commerce, the 2009 Budget provides 
$383 million for Oceanic and Atmospheric Research (OAR), 22 percent 
more than in FY 2001. OAR provides for ongoing research on climate, 
weather, air quality, and ocean processes.
    The FY 2009 NOAA budget again requests $20 million for oceans 
science and research (with another $20 million from NSF and USGS) as 
part of a $40 million interagency effort to implement the Ocean 
Research Priorities Plan called for in the President's U.S. Ocean 
Action Plan. Unfortunately, the 2008 Omnibus provided about 10 percent 
of the $40 million requested. Nevertheless, the President remains 
committed to enhancing ocean science that will make our oceans, coasts 
and Great Lakes cleaner, healthier and more productive and is again 
requesting new funding to support efforts in these areas. The $20 
million will address the four near-term ocean research priorities 
established by the Ocean Research Priorities Plan and Implementation 
Strategy, published in January 2007. The NOAA Budget also proposes $8 
million to continue extended continental shelf scientific analysis to 
define and map its U.S. outer limits and an additional $21 million to 
develop an operational ocean monitoring network.

U.S. Geological Survey (USGS):
    The FY 2009 request for the USGS in the Department of the Interior 
is $969 million, 10 percent more than FY 2001. The USGS portion of the 
Landsat Data Continuity Mission remains steady at $24 million, while a 
National Land Imaging office to assess future land imaging needs is 
also established. $31 million is targeted for the new climate change 
activity; an $8 million increase is proposed for the Water for America 
initiative, including a national water census; and for the interagency 
ocean science initiative referred to in NOAA, an increase of $3 million 
is requested for the Ocean Research Priorities Plan and $4 million for 
mapping of the extended outer continental shelf. The Minerals Resources 
Program is again proposed for reduction, since much of this program's 
research is not the responsibility of the Federal Government, and can 
be conducted State and local governments, industry and universities.

Environmental Protection Agency (EPA):
    The FY 2009 budget for science and technology funding at EPA is 
$790 million, $4 million more than FY 2008. Research priorities include 
supporting the agency's nanotechnology program, funded at $15 million, 
an increase of $5 million over 2008 enacted. Additionally, to ensure 
EPA's ability to attract and retain the highest caliber scientists, the 
budget proposes expanded special authority that will allow EPA to hire 
up to 40 scientists quickly and competitively. $35 million is also 
requested to support high priority Water Security activities.

Department of Agriculture (USDA):
    The USDA science and research programs total $1.9 billion in the 
2009 Budget, a $235 million reduction from FY 2008 mostly due to the 
removal of earmarks and reduction of formula grants. Still at nine 
percent more than FY 2001, the Administration favors competitive 
research grants which are allocated based on an objective peer-reviewed 
process. This is reflected in a requested 34 percent increase for the 
National Research Initiative.

Department of Transportation (DOT):
    The FY 2009 Budget request for highway-related research is $430 
million, the same as current funding and consistent with the level in 
the multi-year surface transportation research authorization. Highway 
research includes the Federal Highway Administration's transportation 
research and technology contract programs as well as some programs 
administered by the Research and Innovative Technology Administration. 
These research programs include the investigation of ways to improve 
safety, reduce congestion, improve mobility, reduce life cycle 
construction and maintenance costs, improve the durability and 
longevity of highway pavements and structures, enhance the cost-
effectiveness of highway infrastructure investments, and minimize 
negative impacts on the natural and human environment.
    The 2009 Budget request for Federal Aviation Administration (FAA) 
Research, Engineering, and Development is $171 million, 16 percent more 
than current funding and includes $56.5 million focused on the 
advancement of the Next Generation Air Transportation System (NextGen). 
FAA's Air Traffic Organization account also includes $41.4 million for 
NextGen R&D. This NextGen R&D is coordinated by the interagency Joint 
Planning and Development Office.
    In addition, the 2009 Budget requests $12 million for the Research 
and Innovative Technology Administration to coordinate and advance the 
pursuit of transportation research that cuts across all modes of 
transportation, such as hydrogen fuels, global positioning and remote 
sensing. DOT research programs also support the National Nanotechnology 
Initiative, the U.S. Climate Change Technology Program, and the 
President's Hydrogen Fuel Initiative.

Department of Defense (DOD):
    DOD's FY 2009 R&D budget (including pay for military personnel 
engaged in the research, development, test and evaluation enterprise) 
is over $80 billion. This level of funding will support the 
Department's transforming commitment to reorient its capabilities and 
forces for greater agility, while enabling effective responses to 
asymmetric and uncertain challenges of future conflicts. These funds 
will also help address emergent threats through countermeasures to 
biological agents and novel technologies to detect and neutralize 
improvised explosive devices, mines, rockets and mortars.
    The Science and Technology (S&T) component of the overall DOD R&D 
budget includes basic research (6.1), applied research (6.2), and 
advanced technology development (6.3). At $11.5 billion in the 2009 
Budget, DOD S&T exceeds the 2001 enacted level by $2.5 billion. From 
2000 to 2008, Congressional ``adds''--almost all of which would be 
classified as earmarks according to Congress' and the Administration's 
definitions--to DOD S&T quadrupled. For 2008, there were 999 adds 
(totaling over $2.3 billion) that must be identified and tracked down, 
advertised in a way specific to the Congressional mark, evaluated, 
negotiated and awarded, all separate from other potential awards. This 
means that those awards consume several times the staff and management 
resources of the average research award, and may not even target a 
military-specific research need. The large number of such additions 
creates impediments to the creation of effective research programs 
throughout the Department, and, when seen in the big picture, should be 
cause for concern to Congress as well as to the Administration.
    A record $1.7 billion is provided for DOD basic research (6.1) in 
2009. That's $270 million or 19 percent above the 2008 request, 
consistent with the ACI and the FY 2009 OSTP-OMB Federal R&D Priorities 
Memorandum. $1.7 billion is also $65 million over the nominal basic 
research (6.1) appropriated level in FY 2008 even with non-program 
earmarks included. In the 2009 Budget, DOD basic research represents 
14.8 percent of the DOD S&T budget, more than last year's 13.3 percent 
share.

Department of Homeland Security (DHS):
    The President's FY 2009 request includes $869 million for the DHS 
Directorate of Science and Technology. $564 million is also requested 
for the Domestic Nuclear Detection Office, $79 million or 16 percent 
over FY 2008 funding. R&D continues to play a key role in securing the 
Nation against the terrorist threat. The President's 2009 Budget 
maintains an aggressive investment in scientific research, technology 
development, and research infrastructure aimed at continuing to enhance 
our nation's security. Priority research areas include: $360 million 
government-wide in transformational R&D aimed at enhancing our ability 
to detect, identify, prevent and attribute nuclear and radiological 
materials; $96 million at DHS for explosives countermeasures research; 
$691 million in USDA, HHS and DHS to improve food and agriculture 
defense, and $280 million government-wide to fund cyber security and 
information assurance R&D.

CONCLUSION

    Making choices is difficult even when budgets are generous, but 
tight budgets require focused priorities and strong program management. 
This year's R&D budget proposal provides robust levels of investment 
that allow America to maintain its leadership position in science and 
move ahead in selected priority areas. The ACI and Advanced Energy 
Initiative properly focus R&D investments in areas that will increase 
our economic competitiveness, decrease our dependence on foreign oil, 
and accelerate development of clean energy technologies.
    America leads all nations in research and development expenditures. 
In 2006 U.S. R&D investment at $340 billion exceeded that of all the 
other G7 nations combined. After a worldwide slowing in R&D 
expenditures in the early 1990's, R&D spending rebounded in the late 
90's, with the United States experiencing the most robust growth. Our 
scientists collectively have the best laboratories in the world, the 
most extensive infrastructure supporting research, the greatest 
opportunities to pursue novel lines of investigation, and the most 
freedom to turn their discoveries into profitable ventures if they are 
inclined to do so. Combined with the merit review process that has 
ensured the quality of American science in the past half century, these 
factors make American science the strongest in the world.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I ask that 
Congress fully fund the R&D initiatives advanced in the President's 
2009 Budget. I would be pleased to respond to questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Biography for John H. Marburger, III
    John H. Marburger, III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D. Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the university and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    As a public spirited scientist-administrator, Marburger has served 
local, State and Federal governments in a variety of capacities. He is 
credited with bringing an open, reasoned approach to contentious issues 
where science intersects with the needs and concerns of society. His 
strong leadership of Brookhaven National Laboratory following a series 
of environmental and management crises is widely acknowledged to have 
won back the confidence and support of the community while preserving 
the Laboratory's record of outstanding science.

                               Discussion

    Chairman Gordon. Thank you, Dr. Marburger, and thank you 
for addressing our questions. We will now proceed to questions 
from this committee, and the Chairman will recognize himself 
for five minutes.
    We have now seen seven budget requests in a row that 
propose a range of funding for MEP that most of us agree are 
woefully inadequate, and each year there is a different 
justification for the cuts and each year the Committee has 
heard experts that will come in and testify to refute those 
justifications. This year the justification is I think the 
weakest of all. The Administration says that the Congressional 
intent was for MEP centers to stop receiving federal funding 
after six years. Can you explain that to me, Dr. Marburger?
    Dr. Marburger. The MEP program is a successful program that 
assists private sector in their efforts to develop technologies 
that will help the United States economy. This Administration 
believes that programs that help the private sector should be 
funded by the private sector, and that explains the pattern of 
budget requests by this Administration over the years.
    Chairman Gordon. Well, many of us feel that by creating 
additional jobs and small businesses, we are going to be 
benefiting our country; but the justification in the budget was 
that the Congressional intent was for MEP centers to stop 
receiving federal funding after six years. Could you explain 
that?
    Dr. Marburger. I do not----
    Chairman Gordon. Well, let me help you. Let me help you.
    Dr. Marburger.--know what the explanation for the six-year 
period was but there is no question----
    Chairman Gordon. I am not trying to trick you here. Let me 
just get the information on the table here. When the original 
Omnibus Trade Act was passed in 1988, it did have a six-year 
sunset.
    Dr. Marburger. I see.
    Chairman Gordon. Yet, in 1998 the bill was reauthorized 
saying that it would continue, it needed to be reviewed unless 
there was a review that said it should stop, and no review has 
said that. And this authorization was continued with the 
COMPETES Act. So once again, we are looking for a reason. I 
think that the reason that you gave orally is what you believe 
and what many of us do not concur with and the reason that this 
committee has, time after time on a bipartisan basis, made that 
clear.
    Also, Dr. Marburger, Section 1009 of the COMPETES Act 
required your office to work with all federal science agencies 
to develop and issue principles to ensure that the federal 
scientists can communicate the findings of their research 
openly to the public and that their research will not be 
suppressed or distorted. These principles were to be developed 
within three months after the law was passed. Within six months 
after the law was passed, your office was to ensure that each 
federal agency developed and implemented policies and 
procedures consistent with these principles. I would like to 
ask, what have you done to fill the requirements in Section 
1009 of the COMPETES Act and have you developed the principles? 
Have they been issued by your office? Have all federal science 
agencies developed and implemented policies based on these 
principles?
    Dr. Marburger. My office has developed principles. In fact, 
I saw the final draft of those principles within the last few 
weeks. They have been submitted to the Office of Management and 
Budget for distribution to the departments for the kind of 
review that is specified in the Act. That will take some time, 
but we do want the agencies and offices to have buy-in to these 
principles so that we can be assured that they will be 
followed. Sorry that it has taken this long. It is a process 
that involves consultation with the agencies, but I do believe 
that we are on a good track to get this out. You will receive 
the information as soon as it is possible to get it to you in 
the form in which it is likely to be approved.
    Chairman Gordon. Better late than never. We do hope that 
you will try to move this forward. I think it is important. Let 
me ask you, did you take any type of public comment or seek 
public comment on these principles as you were developing them?
    Dr. Marburger. We did not take public comment as far as I 
know on these principles, but they will go through an inner-
agency vetting process that will expose them to public view 
that will inform the final version of them. I believe that 
several agencies have good models for a set of principles, and 
we drew heavily on those. NASA is one that I can name in 
preparing our document that we are now circulating to the 
agencies.
    Chairman Gordon. Well, we would certainly welcome to see 
that at the earliest convenience, Dr. Marburger.
    I want to lead by example. My time is up.
    Mr. Hall. Thank you, Mr. Chairman. Dr. Marburger, what are 
the consequences of the fiscal year 2008 omnibus appropriations 
on the agencies that were targeted for increases in the 
American Competitiveness Initiative and the America COMPETES 
Act; and to follow up, how does the fiscal year 2009 budget 
rectify this, what we call a funding dilemma?
    Dr. Marburger. Congressman, the agencies that were targeted 
for increases under the COMPETES Act and the ACI last year did 
receive some increases but nowhere near the amount that were 
proposed by the President. In fact, I believe I have the slide, 
if it is still available at the end, that shows the impact of 
COMPETES Act funding, of the omnibus funding.
    [Slide]
    The green bars represent the Presidential requests for the 
three priority agencies, National Science Foundation is the 
first, the Department of Energy, Office of Science is the 
second, and the NIST is the third. And on the right, the bars, 
some of the white and the red bars, are the amounts that were 
actually appropriated in the omnibus bill. The red hatched bars 
indicate the amount of unrequested funds or earmarks associated 
with that funding which I will not comment on, but you can see 
the difference is very great. And I believe that there has been 
some very significant adjustment required, particularly in the 
High Energy Physics Program and the Department of Energy, 
Office of Science, and in the International Fusion Initiative 
called ITER. The omnibus bill specifically cut funding for 
these areas that has precipitated loss of jobs in some key 
national laboratories, layoffs on the order of hundreds of 
trained scientists and engineers at SLAC, Stanford Linear 
Accelerator Center, in California, and at Fermi Lab in 
Illinois. This represents a serious problem for those 
laboratories. They are coping with it and adjusting their 
priorities, and it also causes a great deal of embarrassment 
for the Nation because we have international commitments to the 
ITER program that just have to be fulfilled.
    So there are these specific consequences that have a more 
or less immediate impact. In the longer run, of course, failure 
to fund these I think visionary increases causes us to lose 
opportunity. Other countries are investing in infrastructure 
for basic research in precisely these areas. These are the 
areas that support nanotechnology and energy technology and so 
forth, and we just need to catch up. This fiscal year 2009 
proposal from President Bush aims to catch up. He did not 
shrink from asking for large increases in the research budgets 
for these areas and, in addition, increases in other areas as 
well, including education and to the extent possible in more 
targeted technology areas.
    So I hope that answers your question.
    Mr. Hall. I think it does. Let me get more up to date on 
another issue, and you may not--can comment on this but I will 
ask it anyway and at a later time when you can comment on it, I 
would ask you to give us something in writing on it. I think 
you are going to allow us to do that, aren't you, Mr. Chairman, 
to ask for a follow-up?
    Chairman Gordon. If you want, Mr. Hall.
    Mr. Hall. Just last night the Committee received a copy of 
the National Nanotechnology Initiative called ``Strategy for 
Nanotechnology-Related Environmental, Health, and Safety 
Research.'' I just got that last night. I think staff did, ours 
did. I don't really know when the Chairman got it. He is 
entitled to get it first, and I understand that. But our staff 
is still reviewing it. Tell us how the fiscal year 2009 budget 
addresses the recommendations in this report, if you know, and 
it may be an unfair question with this recent development.
    Dr. Marburger. I also just received this this morning, and 
I do note that it includes the supplemental that is published 
annually, usually shortly after the President's Budget Request 
comes out. It is called ``National Nanotechnology Initiative 
2009 Budget and Highlights,'' and there are tables in this 
document, this very brief document, that shows how each agency 
has a share of the mission under the National Nanotechnology 
Initiative. This is a robust initiative. The 2009 budget 
provides increased support for this initiative. It increases 
from $481 million in 2007 to $551 million in 2009, and that is 
a substantial increase, and we think that the program is 
focused and agencies are appropriately coordinating their work 
and participating in it very strongly.
    Mr. Hall. I thank you for that. I have led you over and 
gone over my time. I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall. That is an important 
document. I think it has just come to our office the same as 
yours. We look forward to looking that over. Dr. Marburger, I 
think you will find that this committee will agree on much more 
than we disagree on, but just to set the record straight, let 
me concur that we all are disappointed with the funding within 
an omnibus of the COMPETES bill. However, early last year, the 
House of Representatives passed by a large bipartisan margin, 
281 to 142, Commerce, Justice, Science Appropriation Bill that 
came very close to fully funding NSF and NIST programs under 
the COMPETES, as well as the President's ACI. The Senate passed 
a similar bill by a margin of 75 to 19. However, the White 
House issued a statement of administration policy on the bill, 
stated that the Administration strongly opposed the House and 
Senate bills and if the bills were presented to the President, 
they would be vetoed. The White House issued an almost 
identical statement on the House, Energy, and Water 
appropriations bill which came close to fully funding COMPETES 
and the ACI programs at the DOE Office of Science, just again, 
for everybody's information. Now, Dr. Baird, the Chairman of 
the Committee that oversees NSF.
    Mr. Baird. Dr. Marburger, thank you for joining us. Thank 
you, Mr. Chairman. I share the disappointment expressed by my 
colleagues on what happened at the end of the year last year, a 
bit of a self-inflicted wound by the White House to some 
extent, but unfortunately it wasn't self-inflicted, it was 
inflicted on the scientific community with I think unfortunate 
consequences. I want to just raise two general issues that are 
of concern to myself and my committee in particular this year. 
One has to do with the role of social sciences, and just 
briefly, you have probably followed the stories for example 
about DOD embedding anthropologists with its units in the field 
and the units finding them incredibly valuable to address 
cultural issues in Afghanistan and Iraq. We have had testimony 
before our hearing on Energy for example, just changing the way 
one messages conservation efforts can increase efficiency by 34 
percent in terms of re-using towels and other things. They 
sound like small things, but on a nationwide scale it is large.
    In the health care front, if you look at the rising cost of 
health care in this society, many of the illnesses that are 
driving health care costs up are behaviorally related, and if 
you look at transportation sector, highway safety, et cetera, 
which is a long introduction into the question of how you and 
the Administration see the role of social sciences in solving 
some of this nation's priorities and within your budget.
    The second question I will give you and then you can answer 
both if you like, another issue of concern to our committee, 
and to myself, has to do with science diplomacy. For many 
years, the United States led the world in a number of ways. 
This committee, I understand, had a subcommittee dealing with 
international science exchanges. I think actually prior to 9/
11, those were actually declining, and I think we have lost our 
leadership role in that. What are your thoughts about the 
Administration priorities and where this country should go to 
regain our international standing as a leader in scientific 
dialogue and exchange? Those two questions would be much 
appreciated.
    Dr. Marburger. Thank you, Congressman. First, in the social 
sciences, I want to declare here that I am a strong advocate 
for social sciences. I believe that social sciences have a 
great deal more to contribute to solving the difficult problems 
of society than they are now, and I hope that the increases 
that have been requested for the National Science Foundation 
will help those budgets and move us forward in that area.
    Mr. Baird. Thank you. That is great to hear.
    Dr. Marburger. So I completely agree on a priority for the 
social sciences. I can talk much more about that if----
    Mr. Baird. We should get together and do that. We would 
love to have you do that.
    Dr. Marburger. I would like to do that. On science 
diplomacy, by coincidence after this hearing, I will be meeting 
with the European Science Commissioner, Dr. Potocnik, to 
discuss important large-scale science interactions that we have 
with the European Union; and next week, starting on Monday 
evening and extending for a day-and-a-half beyond that, I will 
be leading a joint commission meeting with Russia, and the 
Minister for Science in Russia will be leading the delegation 
on the Russian side. So we have all the major agencies that are 
under the purview of this committee represented in our team on 
that joint commission. I mention these activities to indicate 
that there is a continuing, ongoing relationship with other 
countries and that the President himself and the Secretary of 
State both support the use of science in their diplomatic 
endeavors. It is important for us to maintain the funding that 
we have committed for these efforts. That is why I am so 
disappointed in the ITER treatment in the omnibus bill, but we 
are going to just do this somehow; and of course, we have major 
cooperative initiatives in space and basic science, large 
machines, as the Large Hadron Collider comes on line in Geneva 
later this year. Americans will probably dominate the team that 
is working there.
    So we think this is important, and we continually look to 
the State Department to support the efforts of all the 
agencies.
    Mr. Baird. I am pleased by both responses. I just want to 
thank you for that, and I would like to follow up with you on 
both areas. And finally, I just would acknowledge that I had 
the privilege of leading many Members of this subcommittee to 
Antarctica, and I just want to commend the research that this 
country is conducting down there, the NSF people, and all the 
folks who make that possible. I know you have a passion for 
that as well. It is really remarkable what they do there. Thank 
you, Dr. Marburger, for your service and your testimony today.
    Chairman Gordon. Right on time, Dr. Baird. And Ms. Biggert 
is recognized for five minutes.
    Ms. Biggert. Thank you, Mr. Chairman. Before I ask my 
question, if I could ask unanimous consent that an op-ed by 
Craig Barrett, the Chairman of Intel Corporation that was in 
the San Francisco Chronicle on January 20, 2008 be included in 
the record for today's hearing?
    Chairman Gordon. Without objection.
    [The information follows:]

               Flagging economy needs science investments

                             Craig Barrett
                        Sunday, January 20, 2008
    Two years ago, the National Academies published the seminal study 
on U.S. competitiveness entitled ``Rising Above the Gathering Storm.'' 
The study identified major shortcomings in U.S. investments in basic 
scientific research as well as in math and science education for our 
youngsters. The suggestions contained in this study were immediately 
picked up by the Democratic House Leadership as their competitiveness 
strategy and later by President Bush in his State of the Union message 
under his American Competitiveness Initiative. Legislation in the form 
of the America COMPETES Act was passed in the House and Senate in 2007, 
and it appeared the United States was finally going to move forward 
after years of neglect to increase investment in math, science and 
basic research. All parties agreed that our competitiveness in the 21st 
century was at stake and we needed to act.
    So much for political will.
    The recent budget deal between Republicans and Democrats 
effectively flat-funds or cuts funding for key science agencies. 
Excluding ``earmarks,'' the Department of Energy funding for fiscal 
year 2008 is up only 2.6 percent, thus losing ground to inflation. The 
National Science Foundation is up 2.5 percent, with the same result. 
The National Institute of Standards and Technology is up 11 percent, 
however the labs where research happens only get 2.3 percent, again 
losing ground to inflation. Key national laboratories, such as the 
Fermilab, which focuses on high-energy particle physics research, face 
the likelihood of hundreds of jobs being lost and the closing of some 
facilities, helping to shortchange defense research. Predicting the 
impact of such funding cuts in basic research on future job creation is 
difficult. Who could have predicted a $300 billion semiconductor 
industry from the invention of a transistor? But our kids who are 
heading to college are very smart. They will make their career 
decisions based on where they see the priorities of our government and 
economy.
    The funding decisions on the America COMPETES Act took place a few 
days after Congress passed a $250 billion farm bill. In the eyes of our 
political leaders, apparently, corn subsidies to Iowa farmers are more 
important for our competitiveness in the next century than investing a 
few billion in our major research universities. The President expressed 
his happiness with the budget and Sen. Harry Reid, the Senate Majority 
Leader, said, ``The President didn't get his priorities, we got ours.''
    At a time when the rest of the world is increasing its emphasis on 
math and science education (the most recent international tests--NAEP 
and PISA--show U.S. kids to be below average) and increasing their 
budgets for basic engineering and physical science research, Congress 
is telling the world these areas are not important to our future. At a 
time when we are failing our next generation of students, politically 
charged topics such as steroids in Major League Baseball and the 
destruction of CIA interrogation tapes command instantaneous 
congressional hearings while the seed corn (no pun intended) of our 
future is ignored and placed lower in priority than billions of dollars 
of earmarks.
    Perhaps this would all be a moot discussion if we could continue to 
import the best and brightest minds from around the world to start and 
staff our next generation of high tech startups. But Washington can't 
even get that strategy straight, as legal immigration--the process by 
which bright, highly educated workers immigrate to the United States--
is being choked by our inability to control illegal immigration. While 
the EU has proposed a simplified and expanded program for importing 
highly educated talent from the rest of the world, we continue to make 
if more difficult for the same talent to work in the United States, 
even when some of these knowledge workers have received their education 
in the United States at partial taxpayer expense.
    Where are the voices in Washington to bring reasoned debate and 
action to these topics? Where are the voices among the presidential 
candidates to propose solutions to these challenges? What do we elect 
our political leaders for if not to protect our long-term future?
    The United States stands at a pivotal point in our history. 
Competition is heating up around the world with millions of 
industrious, highly educated workers who are willing to compete at 
salaries far below those paid here. The only way we can hope to compete 
is with brains and ideas that set us above the competition--and that 
only comes from investments in education and R&D. Practically everyone 
who has traveled outside the United States in the last decade has seen 
this dynamic at work. The only place where it is apparently still a 
deep, dark secret is in Washington, D.C.
    What are they thinking? When will they wake up? It may already be 
too late; but I genuinely think the citizenry of this country wants the 
United States to compete. If only our elected leaders weren't holding 
us back.

    Craig Barrett is the Chairman of Intel.

http://sfgate.com/cgi-bin/article.cgi?f=/c/a/2008/01/20/EDFDUHP1I.DTL

    This article appeared on page G-5 of the San Francisco Chronicle.

    Ms. Biggert. Let me just say that this article does have a 
quote in talking about the funding decisions and the loss of 
funding in the omnibus bill. He says, ``The President expresses 
happiness with the budget, and Senator Harry Reid, the Senate 
Majority Leader, said, `The President didn't get his 
priorities, we got ours.' '' And I don't want to point fingers 
at anyone, but I really just want to say how serious this 
problem is and how important it is that, you know, hopefully we 
can do something.
    So with that, Dr. Marburger, I would like to start by 
commending you and President Bush for remaining committed to 
the American Competitive Initiative and the spirit of the 
America COMPETES Act in Fiscal Year 2009 Budget Request. I 
think, you know, despite the failure by this Congress to fully 
fund related R&D programs in each of the last two years, I know 
that you are talking about the fiscal year 2009 budget request, 
but I would just like to ask you if you could share with this 
committee what would be the consequences if Congress fails to 
restore the funding that was lost in the fiscal year 2008 
budget, if we fail to fund that in a supplemental appropriation 
bill? Could you give us a damage report?
    Dr. Marburger. Congresswoman, I can't really speak to what 
happens in fiscal year 2008. I don't have any information on 
that. I do think that the best possible thing that could happen 
for those programs which are impacted by the results of the 
2008 omnibus bill would be a timely appropriation for the 
current request and swift action on appropriations during this 
session of Congress. I think that would send the right signal 
to the agencies whose hopes had been dashed, and I think it 
would send the right signal to the international community. But 
I can't speak to the fiscal year 2008 process. I am sorry.
    Ms. Biggert. Well, what I was more concerned about was, and 
maybe you can speak to this, what happens with the personnel, 
you know, the scientists, the engineers, and support staff for 
these programs? My concern is that already we are seeing 
layoffs in some of the labs and furloughs and scientists 
already saying I am going back to France.
    Dr. Marburger. We have heard some stories like that. I know 
that the Department of Energy is doing everything they can to 
help those people whose jobs are impacted by the consequences 
of that bill. I have spoken directly with the Secretary of 
Energy and with the Under Secretary for Science, Dr. Orbach, 
and I know that they are working as hard as they can to make 
arrangements to deal appropriately with that. But I can't put a 
bright face on it. These are things that happen, and they are 
happening. There are impact reports available from the 
Department of Energy that I have seen, and it is possible to 
give more detail on the actual reductions in force that are 
required. I don't have the current numbers with me, but I know 
they have been reported in the newspapers as well.
    Ms. Biggert. Another consequence seems to be from American 
businesses who use their facilities where they are going to be 
cut the usage of the research that they need to do to be 
innovative and creative.
    Dr. Marburger. Well, this is true. I focused on the most 
acute impacts which were actual furloughs and layoffs, but the 
reason that these agencies are prioritized in the first place 
is that their budgets have lagged for decades, literally, and 
the facilities that they operate for the rest of the science 
community, which are very heavily used, are operated on very 
thin budgets. And so this year it has been necessary to curtail 
the running time of some of these important facilities which 
are used by biomedical investigators and people working on 
energy technology, nanotechnology, and so forth. So there is no 
question that there has been a fairly broad impact on the 
ability of our nation to compete in these fundamental areas.
    Ms. Biggert. Have you talked at all to Secretary of State 
Rice about the international reaction to our failure to fund 
ITER?
    Dr. Marburger. I have not talked directly with the 
Secretary, but I have had discussions with her science advisor, 
Dr. Nina Federoff, and I have been in touch with her regarding 
correspondence with the Secretary and others on this issue. So 
we are in very close contact with the State Department.
    Ms. Biggert. Now, I just hope that the President--and I am 
sure that he does because he has heard from a lot of us, about 
the importance of this issue and to every Member in this 
committee and the consequences if we fail to restore the 
funding. Thank you.
    Chairman Gordon. Thank you, Ms. Biggert. Ms. Richardson is 
recognized.
    Ms. Richardson. Yes, thank you, Mr. Chairman. Thank you for 
being here today, and it is a pleasure meeting with you, and I 
look forward to working with you.
    A couple questions. Number one, since I am a newer Member, 
if you wouldn't mind supplying to the Committee, you mentioned 
in your testimony what are some of the levels of how other 
countries are contributing and investing in this area. If you 
wouldn't mind giving us a more updated report of what some of 
those countries are doing, that would be of great help to me. 
And then as I go into my second question, I would like to build 
upon what Chairman Gordon was saying in his initial questions 
and that was that you put up in your slide of the earmarks and 
requests and all of that. The bottom line is within your 
particular department, there have been significant cuts, and 
our concern is as a matter of this committee, we want to see 
not only--we don't want to see a reduction in terms of programs 
and services, we would like to see an increase. Specifically 
the National Nanotechnology Initiative had a barely increase of 
two percent which doesn't even meet with the normal cost-of-
living increases, and in particular, I would like to point out 
to you the Manufacturing Extension Partnership. Since 2000 and 
the current Administration, we have lost 3.4 million 
manufacturing jobs. These are high skilled, high wage jobs that 
are the backbone of many communities such as mine. NIST 
recently reported the results of a survey where manufacturers 
who used your program, MEP in 2006, after one year you had 
52,000 jobs that were created or retained, $6.8 billion in new 
or retained sales, $1.1 billion in cost savings, and over $1.7 
billion of private investment leverage. So my question to you, 
sir, is did you request an increase for this program and also 
the NNI program, and if so, what did you request?
    Dr. Marburger. The two programs are quite different in how 
they are funded. To start with the NNI program, the NNI program 
is funded through the agency budgets primarily of the agencies 
that are targeted under the COMPETES Act, and we roll up their 
expenditures on nanotechnology at the end of each year, and we 
also ask them to indicate how much they are spending in 
subsequent years. And I believe that is part of what this very 
recently issued document describes. I was just trying to 
identify the increases. So on nanotechnology, we do not ask for 
specific increases for that program. We ask for increases for 
the agencies that fund that program. The Department of Defense 
and the National Science Foundation have the largest share of 
that program, and I believe that the funding will go up in 
those agencies in this year.
    With respect to the Manufacturing Extension Program, our 
argument is not about the effectiveness of the program but with 
how it is funded; and in my response to Chairman Gordon's 
question, I tried to give a succinct explanation for that which 
is primarily is that there is a difference of opinion about how 
that program should be funded.
    Ms. Richardson. So given the comments of this committee and 
if we are saying that we are supportive of that program and we 
see the results of that, what could we anticipate from you of 
taking that back to the Administration and reconsidering 
because clearly to have the budget, you know, zeroing out for a 
program that is working and we are losing manufacturing jobs 
across this country, it is a very key priority for me.
    Dr. Marburger. I don't believe that there is any chance 
that the President will change his request to Congress that is 
now before Congress in response to your question.
    Ms. Richardson. I look forward to you taking back this 
committee's comments to the Administration.
    Dr. Marburger. Thank you.
    Ms. Richardson. Thank you, Mr. Chairman.
    Chairman Gordon. Just for your information, Ms. Richardson, 
I think year after year on a bipartisan basis this committee 
has supported the MEP program and felt that it is very 
worthwhile. But unfortunately, much of the funding has been 
replaced, although it is very tight there.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, thank 
you, Dr. Marburger, for being here. Thank you for the hard work 
you are doing to try to straighten out what is a very 
unfortunate situation which a good deal of the blame belongs in 
the Congress for passing an omnibus bill which is totally 
inadequate in funding science and research, and we will have to 
continue to work together to try to correct that. But I 
appreciate your efforts on that score. I also thank the 
President for his strong support of ACI and the authorization 
bill and also attempting in fiscal year 2008 to institute the 
ACI authorizations with full funding. Unfortunately, we find 
ourselves in a bad situation, and I will get back to that in 
just a moment. But I do want to mention, MEP always comes up 
every year, and I have fought assiduously for it. I have talked 
to Director of OMB and the Chief of Staff of the President 
about this at times and complained about the little man in the 
basement of the White House who doesn't like MEP and tries to 
kill it every year. Now, I know that little man is a big man, 
and he is not in the White House, and I do know where he is. 
But that is in your shop and the President's shop and not in 
ours, but so be it.
    I do want to point out, however, that we have a forerunner 
for the MEP. It is called the Cooperative Extension Service in 
the Department of Agriculture. That has been in place for many 
years. I don't know how many, but it basically grew out of the 
land grant system which the Congress developed in the 1860s or 
thereabouts. It has been around a long time. It has been very, 
very useful in making American farms the most efficient farms 
in the world. It works extremely well, and we as a nation spend 
$400 million a year to fund the Cooperative Extension Service 
which is for agriculture. Agriculture today in this country 
employs about one and one-half percent, at most two percent, of 
the population. Manufacturing on the other hand employees 14 
percent of the workers in this nation. Now, I fail to 
understand the logic of the Administration in saying, yeah, it 
is okay to spend $400 million a year on agriculture extension 
programs which meets the needs, the training needs and so 
forth, of one and one-half percent of the population, but it is 
totally wrong to support for manufacturing which has 14 percent 
of the workers in the Nation. And there is a strong 
philosophical disagreement here. And I am not castigating you. 
I know what the situation is. But I simply do not understand an 
Administration position which he held onto for years. We 
continue to fight the battle, we continue to appropriate the 
money. It is just a silly conundrum to have to deal with.
    Having vented myself on that, let us get back to the real 
issue which is the funding of research. We all heard the 
stories about China, India, and so forth. They are where they 
are for two reasons because in approximately 20 years both 
countries, China and India, made major changes in their 
political structure and basically adopted the free enterprise 
system, a limited free enterprise system. Secondly, they 
strongly emphasized math and science education for their 
students. The result of those two major decisions of those 
countries is that they are beating us in manufacturing and 
production in ways we never anticipated. We already have the 
free enterprise system. That is how we grew what we did and how 
we became so strong. But we have not beefed up the math and 
science education programs in our nation, and as a result, we 
are losing ground dramatically. And we also are faltering in 
our research efforts, whereas those countries are substantially 
improving them as are almost every country in the world. We are 
in danger of losing our status. Right now South Korea is 
becoming very close to us in the dollars spent per year on 
basic research compared to GDP, and other nations are 
approaching us or exceeding us. Our country simply has to come 
to grips with that. The omnibus error was our fault as a 
Congress, and the President had little choice but to sign it. 
So the Administration saved money because less money was spent 
on science and R&D. Why in the 2009 proposal didn't the 
Administration fund or propose funding all the ACI entities, 
whether an NSF, DOE, NIST, at the fiscal year 2009 
authorization? In other words, continue what they would have 
done had we passed the 2008 authorization that was requested by 
the President. The omnibus bill, like it or not, it cut science 
funding substantially, but that did save the Administration 
some money. Now why base next year's fiscal year 2009 proposal 
on a faulty 2008 fiscal year result? And I have never 
understood that method of budgeting. I happen to be a fan of 
zero-based budgeting, but be that as it may, it just doesn't 
make sense to me. If we set ourselves on a path to double the 
funding for research in DOE, NSF, and NIST to double in a 
certain number of years, just because we fall back in one year, 
why do we have to fall back next year as well? Why not restore 
that? Do you have an answer for that?
    Dr. Marburger. I am not sure I can answer all of those 
questions.
    Mr. Ehlers. You don't have to answer all of them.
    Dr. Marburger. Well, certainly, in my view, the 20 percent 
increases for these agencies, and two of them are quite large 
agencies, those represent a very powerful commitment by the 
Administration----
    Mr. Ehlers. No question. No question.
    Dr. Marburger.--in a time when the President is holding the 
rest of the discretionary budget to less than one percent 
growth, I mean, below inflation. These priority areas are 
getting huge increases, even in the area where people are 
concerned about, the education sections of NSF and other 
agencies, the increases are on the order of nine percent. These 
are big increases at a time when the Nation is facing budget 
deficits and difficult economic times, and I think that the 
prioritization within this budget request reflects the needs of 
these agencies. I mean, I think these are healthy requests.
    Mr. Ehlers. I don't argue with that. My argument is very 
simple. If we had in fact passed the President's request this 
past year, which both Appropriations Committees had decided to 
do, he would have put more money in this. In other words, we 
went on the NIH doubling path a decade ago. We had an 
agreement, and every year we took the steps to double in a 
certain amount of time, and we fulfilled our commitment to do 
it. After one year, we are falling back.
    Dr. Marburger. I am not sure of that. I would like to get 
back to you on that because I think the increases that the 
President is requesting for this year actually get us back up 
on the original ACI schedule. The difference between the 
omnibus bill and the President's request this year is much 
greater than the difference that he would have had to ask for 
had the omnibus bill funded----
    Mr. Ehlers. No, I understand that----
    Dr. Marburger.--full request.
    Mr. Ehlers.--and we will discuss that privately. We don't 
have to hash that out here.
    Dr. Marburger. Okay. But let me just state finally, I 
believe the fiscal year 2009 request for the ACI agencies was 
not based on the fiscal year 2008 request but was an 
independent judgment of what needed to be done to meet the 
President's targets, and I will be glad to say that in writing.
    Mr. Ehlers. Okay. Thank you very much. I yield back.
    Chairman Gordon. Ms. Woolsey is recognized.
    Ms. Woolsey. Thank you, Mr. Chairman, and I was here for 
your testimony, sir. I had to leave and then come back, and you 
know how we are. But your answer to my colleagues, 
Congresswoman Richardson and then to Congressman Ehlers, still 
makes me confused. Why are you asking us for support if you 
think what the President's budget does is adequate? That is 
confusing to me.
    Dr. Marburger. Congress appropriates the money----
    Ms. Woolsey. Right.
    Dr. Marburger.--and this is my opportunity to speak to 
Congress.
    Ms. Woolsey. Okay. So in asking us to help, will one of the 
pieces of legislation that then we can do more about in the 
COMPETES Act, advanced research projects, ARPA-E, I mean, if we 
can do more for you, will the White House support more for our 
move to replace fossil fuels with more energy efficient 
technologies? Is it going to work both ways or do we help and 
then we put more money into old-fashioned energy systems?
    Dr. Marburger. The failure of the President to designate 
and create an ARPA-E within his budget request does not mean 
that this request falls short for what is needed for 
investments in energy-related research. Under the Advanced 
Energy Initiative, which funds parts of the Department of 
Energy that do the same things that the ARPA-E would do, or 
similar things, there is a very large increase. I think there 
is about a 25 percent increase in the budget for energy-related 
research and development and technology, a very large increase. 
The base is about $3 billion I think now, and the President is 
requesting an additional $600 million for that area. So there 
isn't any failure to rise to the occasion as it were for 
energy-related research.
    Ms. Woolsey. But remember, my question to you was, is it 
energy that will take us to the future so that it is getting 
beyond fossil fuels or is it staying with the same energy 
programs that we have had in the past?
    Dr. Marburger. Absolutely. I believe there is some detail 
in my written testimony. I apologize for not having time to go 
through all of that in my oral, but there are large requests 
for biomass, solar, hydrogen fuel cells, hybrid electric 
systems, wind energy, geothermal, and nuclear power, all 
receiving increases under that title. So I believe that this 
proposal does in fact address the important national needs in 
the energy technology area.
    Ms. Woolsey. Well, I am probably going to ask you something 
that is unfair because I have a couple of seconds left I am 
sure. Do you have any idea why the President feels that it is 
okay to increase the Pentagon's budget by 8 percent and leave 
projects like ARPA-E without any funding at all?
    Dr. Marburger. As I explained, the objectives of ARPA-E as 
I understand them are in fact funded through other programs 
within the Department of Energy. When it comes to the 
Department of Defense, the major increases in basic research in 
this budget proposal for the Department of Defense, which is a 
major funder of things like nanotechnology and other things 
that are important for our competitiveness, so that the 
President's increases to the Department of Defense do not 
ignore or shortchange in any way other areas of the science 
budget. We think that the science budget proposal in this 
document is healthy, it addresses the needs of the Nation, and 
I don't think there is any need to feel that the Defense budget 
is somehow causing the science programs to be short-funded.
    Ms. Woolsey. Do you think that that would make any kind of 
sense to remove these programs from the Department of Defense 
and bring them over to the other side of the fence so that we 
don't have to have this huge Defense budget to get something 
done?
    Dr. Marburger. Well, the Defense Department has 
traditionally been the major supporter of research in 
engineering particularly and in material science and lasers and 
other things. They have a strong track record of success in 
these areas. And furthermore, research in these priority areas 
is important for the Department of Defense missions. So I think 
it is appropriate to see the robust research budget in the 
Department of Defense.
    Chairman Gordon. Thank you, Ms. Woolsey, and Dr. Gingrey is 
recognized.
    Mr. Gingrey. Mr. Chairman, Thank you. Dr. Marburger, thank 
you for your testimony, and you know, relating back to what the 
gentlelady from California just said, Ms. Woolsey, we are not 
often necessarily on the same page on every issue, but I think 
she does bring up a pretty good point; and it makes me wonder 
sometimes if when we get reports like we did with The Gathering 
Storm and the fact that we all realize that we are so far 
behind other developed countries in math and science and the 
push by this committee to pass the America COMPETES Act and to 
try to address that problem with more funding for STEM research 
and education, it makes me wonder sometimes if we are fighting 
hard enough. And when I say we, I am talking about these 
agencies to which these budgets apply, and maybe even Dr. 
Marburger yourself and your committee and the great scientists 
that you and others are that advise the President and advise 
the Administration. I also sit on the House Armed Services 
Committee, so I am a strong proponent for continued funding for 
our national defense and growing that; and I think it is 
important what we do in Darfur as you pointed out. But I think 
as she pointed out in regard to ARPA-E, we are talking about 
alternative energy sources and if that is not a threat to us 
both economically and security-wise, I mean, I don't know what 
else is. I mean, certainly it is a threat. So it makes me 
wonder if you guys, if I can use that expression, are fighting 
hard enough to get your share of the pie. And of course, we 
want to keep the pie small. I do as a fiscally conservative 
Republican, and I will continue to take that posture but here 
again, I mean, Dr. Ehlers pointed out in regard to Agriculture 
Extension Programs and the number of people today in this 
country involved in agriculture as their means of income versus 
those that are involved in manufacturing, and we have no money 
in here for MEP which is so important in every district of 435 
Members of this House of Representatives and 100 Senators, I 
just don't get that part. I better finish up quickly or you 
will have no time to respond. But in regard to the math 
education as an example, you have got funding. Your testimony 
says that your budget does not support significant expansion of 
STEM education programs that are housed outside the Department 
of Education. Why not? So at this point, I will turn it over to 
you and let you respond to my diatribe.
    Dr. Marburger. Thank you, Congressman. I will try to spend 
a minute on each. First of all, with respect to energy 
technology, I think a 25 percent increase in a $3.2 billion 
base for advanced energy technology really is responding to the 
need in this area. And so the fact that the President did not 
fund those activities through ARPA-E does not mean that we are 
not funding them. ARPA-E was authorized at $300 million this 
year, but the President's request for research in these precise 
areas was $600 million so we can't say that this budget 
represents a pull-back from the need to fund energy technology. 
With respect to the remark in my testimony that indicated that 
the significant expansion of education programs took place only 
in the Department of Education, I think that is an artifact of 
a way of counting these things that perhaps OMB, from whom I 
got those talking points, expresses it. The fact is that the 
budgets for education in the National Science Foundation are 
approximately equal to the budgets for math and science 
education in the Education Department. There were certain 
increases in ACI categories that were quite substantial this 
year in the Education Department. There was a nine percent 
increase in education in the National Science Foundation on a 
pretty big base. So I am not sure that we are comparing apples 
and oranges here, but I know that the President is asking for 
increased money, both in the National Science Foundation and in 
the Department of Education. The Education Department is 
designed to address large-scale education programs, 
implementation, if you wish, of education, whereas the National 
Science Foundation's role here is to develop materials and 
learning techniques and so forth doing education and science 
research. And they both do a good job at their respective 
missions.
    Chairman Gordon. The gentleman's time has expired.
    Dr. Marburger. I will just stop there. Thank you.
    Chairman Gordon. So I guess, Dr. Marburger, since the 
Department of Education has been doing such a good job you are 
satisfied with our international rankings?
    Dr. Marburger. I think the international rankings are 
difficult to interpret. The----
    Chairman Gordon. Okay. Well, since we are close, we will 
let Congresswoman Eddie Bernice Johnson is recognized for five 
minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. I will 
simply ask, and you might not have time to answer my question 
in completion. I got here a little late, so maybe you addressed 
this but to me, the most important thing about any future in 
research or anything else is finding the students interested. 
And what I would like you to do is describe to me the 
activities that you are involved with or that you know 
education is involved with in seeking that preparation for our 
nation for the future. If we can't have basically prepared 
people to do this, the rest of it is for naught. Thank you. I 
look forward to seeing your response.
    Dr. Marburger. Thank you. I would like to respond to that 
in writing because there is such a large number of programs 
that are funded and increased in this budget proposal.
    Ms. Johnson. I would like also your recruitment activity.
    Dr. Marburger. And recruitment. I will look into that. I 
can't respond to that immediately.
    Ms. Johnson. I really can read what is in here for funding, 
I just want to know some activities that are encouraged, that 
is supported by the Administration, or that is going on to get 
the attention of young people to participate in these programs.
    Dr. Marburger. I think I understand. And I do believe 
information exists on that that I will send to you.
    Chairman Gordon. Thank you, Ms. Johnson. And because of Ms. 
Johnson's courtesy, Dr. Bartlett, you can close us out here as 
we have 10 minutes to a vote.
    Mr. Bartlett. Thank you very much. Thank you for your 
testimony, sir. The same gentleman that predicted that the 
United States would reach its maximum oil production in 1970, 
M. King Hubbard predicted that the world would be reaching its 
maximum oil production about now; and as you know, the IEA, 
International Energy Agency, and the EIA, the Energy 
Information Agency, have both been tracking the production and 
consumption of oil, and they have shown that to be flat for the 
last 30 months. With a flat production and an increasing 
demand, oil has increased from $40 a barrel to I think it is 
about $95 a barrel today. A couple of weeks ago Shell Oil 
Company issued a statement saying that not later than 2015, 
just around the corner, that the world would not be able to 
meet the demands of our industry with oil and gas. The Hirsch 
Report, the first of four reports paid for by our government 
and ignored by our government, published in 2005, said that if 
you didn't anticipate this maximum production of oil, peak oil 
by two decades, that you would have meaningful economic 
consequences of that. Considering, sir, that most of the monies 
that we are spending are business as usual, wind, solar, 
nuclear, biomass, and ethanol, I would submit that we really do 
need an ARPA-E. None of these things that you mentioned on that 
list, and they are all very admirable, but they are not the 
cutting edge kinds of things that we are going to absolutely 
have to do if we are going to avoid a big train wreck. I see 
little indication on the part of the Administration that they 
understand the seriousness of the challenge that we face. My 
wife, by the way, says that I shouldn't be talking about this. 
Don't I remember in ancient Greece they killed the messenger 
that brought bad news, and I tell her this is a good news story 
because if we start today, the ride will be less bumpy than if 
we start tomorrow. I find this exceedingly challenging. There 
is no exhilaration like the challenge of meeting and overcoming 
a big threat, and that is what this is. Shouldn't we start 
having a really aggressive program in ARPA-E considering the 
real challenge of energy in the world?
    Dr. Marburger. I certainly agree that we need to be working 
very hard and doing everything that we can do to address the 
energy challenges. Whether it is spent through ARPA-E or 
through the Advanced Energy Initiative or something else, I'm 
not as concerned as long as it is being spent; and I do think 
that there is a substantial commitment by this Administration 
to addressing the issue of energy security, which means that we 
should be able to use the energy resources that we have 
available to us, including nuclear and coal, without 
contaminating the environment. And that is why the President is 
seeking funding for demonstration projects and programs to 
produce electricity from coal without adding to the CO<INF>2</INF> 
in the atmosphere. I think that there is in fact a very 
compelling set of initiatives that have been defined by the 
Department of Energy in their energy technology plans that if 
funded would in fact help us to meet this very grave and very 
serious challenge. I agree the challenge exists and we ought to 
be doing something for it. I think the President is asking for 
the funds to do that.
    Mr. Bartlett. Yes, sir. Most of the things that we are 
doing are to produce more electricity. I am fairly sanguine 
about the future of electricity production. I think with more 
microhydro which has a huge potential, I think with a lot more 
nuclear, with wind and solar we can get around the huge storage 
challenges there, we can probably produce about as much 
electricity as we would like to use. I am not at all sanguine 
about liquid fuels. I see almost nothing out there that can 
take up that slack. I spent a week in South America with the 
Chairman of our Committee on Agriculture. He believes that at 
the end of the day when we have exploited every potential we 
can for fossil fuels, renewables, for fossil fuels, that we 
will be producing about a third as much equivalent as we are 
today. We can live very happily with that, sir, but that is 
going to require a huge investment, don't you think?
    Dr. Marburger. Absolutely.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Chairman Gordon. In summary, Dr. Marburger, I think what 
you have heard on a bipartisan basis is more of the same in 
education, more of the same in our energy research is not 
getting the job done. We have to look at a different way to 
approach these, or we are going to continue to be, you know, 
21st with our students, we are going to be, you know, running 
out of energy. But let me say to paraphrase Dr. Bartlett, you 
are the messenger, and we respect that. We respect you, and we 
thank you for coming here and I am glad that we could get you 
out before we had to hold you up on this vote. This committee 
will receive any additional statements from Members and 
questions if they would like to have his follow-up answers from 
the witnesses, and the witness is excused and the meeting is 
adjourned. Thank you.
    [Whereupon, at 1:25 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John H. Marburger, III, Director, Office of Science and 
        Technology Policy (OSTP); Co-Chair, President's Committee of 
        Advisors on Science and Technology (PCAST)

Questions submitted by Chairman Bart Gordon

Department of Energy, Office of Science

Q1.  A large fraction of the workforce at federal research agencies 
like DOE and NASA has been there for decades. Yet, there does not 
appear to be a significant effort to make it easier to bring in top 
talent and pass on institutional knowledge before these employees 
retire in the next few years.

        <bullet>  Does the Administration have any plans to address 
        this issue? Is the Administration conducting a wholesale review 
        of recruiting and hiring practices to ensure a free-flowing 
        pipeline of top talent into federal research agencies?

A1. Agencies were tasked by the Office of Management Budget (OMB) as 
part of the Human Capital Initiative (part of the President's 
Management Agenda) to identify potential skill gaps and create plans to 
address those gaps. More information on this initiative can be found 
at: http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf
    At the agency level, workforce planning activities occur on an 
ongoing basis consistent with specific agency and mission needs. For 
example, the Office of Science (SC) has sought and received delegated 
hiring authority from the DOE Human Capital Office. Once the approval 
was received, SC instituted the following processes to attract and 
expedite the hiring process within overall DOE guidelines:

        1.  Developed templates for our scientific program manager 
        position descriptions, crediting plans, and hiring management 
        questions to speed the process.

        2.  Utilized available recruitment incentives such as superior 
        qualifications in order to be able to set salaries higher than 
        the normal entry level of step 1.

        3.  Paid relocation and/or moving expenses.

        4.  Offered recruitment incentives as a percentage of salary.

        5.  Aggressively advertised outside of the normal human 
        resource mechanisms in scientific journals to attract interest.

Q2.  For several years NSF has been tasked to fund the operations and 
maintenance costs of Coast Guard icebreakers under the rationale that 
the only use of Coast Guard icebreakers is to support NSF's polar 
research activities. In 2006 the National Academy of Sciences completed 
a review of national needs and requirements for icebreaking 
capabilities in polar regions and concluded that ``polar icebreakers 
are essential instruments of U.S. national policy.'' Furthermore, the 
Academy recommended that the Coast Guard have the responsibility, and 
the budget, to construct new icebreakers and provide for the operations 
and maintenance costs of existing icebreakers. Finally, the Academy 
stressed the need for a Presidential Decision Directive to clearly 
align agency responsibilities and budgetary authorities.

Q2a.  Has the Administration made a determination, through a 
Presidential Decision Directive or otherwise, on whether there is a 
national need for icebreakers, and if so, whether the Coast Guard 
should have the budget and responsibility for icebreaker construction, 
operation and maintenance?

A2a. The Office of Science and Technology Policy (OSTP) recognizes 
there are national needs for icebreaking capability not directly 
related to science, however, OSTP cannot speak authoritatively to 
individual agency needs beyond science unless they are spelled out in 
existing policy documents or agreements.
    There are two ongoing interagency discussions. The first 
interagency discussion includes the Department of State, Department of 
Defense, Department of Homeland Security, Department of Commerce, 
Department of Transportation, Department of the Interior, and the 
National Science Foundation. These discussions include broad reviews of 
previous executive branch policy documents, and evaluations of possible 
policy changes that recognize likely future increases in human activity 
that will accompany climatically driven environmental change 
anticipated in the Arctic region. Once the interagency policy 
discussions are completed, agencies can use the results to identify and 
develop capability and resource requirements.
    There is a second separate but parallel interagency discussion, to 
include broad reviews of operational requirements for polar 
icebreakers, which has just begun and also includes the aforementioned 
agencies. A number of agencies are involved because the Coast Guard 
icebreakers are used by multiple agencies, including NOAA to map the 
Extended Continental Shelf.

Q2b.  If the Administration has concluded that there is no national 
requirement for icebreakers, will NSF be released from the 
responsibility for funding all of the costs of the Coast Guard's active 
icebreakers and be allowed to pursue other options, which may be less 
costly, to support its requirements for access to and support of 
research in polar regions?

A2b. The Administration has made no conclusion yet regarding national 
requirements for icebreakers. It is necessary to first complete the 
ongoing Arctic policy review.

National Academy of Sciences Study on Service Science

Q3.  Section 1005 of the America COMPETES statute requires the Director 
of OSTP, through the National Academy of Sciences, to conduct a study 
on service science and report to Congress on how the Federal Government 
should support this discipline. What is the status of this study?

A3. OSTP is reviewing the proposal from the National Academy of 
Sciences and is currently exploring options to fund the study. 
Additionally, OSTP is in the process of reaching out to relevant 
stakeholders in order to define the scope of the study.

Questions submitted by Representative Ralph M. Hall

Q1.  In the President's budget request of $74 million for NOAA in FY09, 
what will be the practical affect of this cut? How will the cut affect 
NOAA's ability to leverage the $74 million in the FY09 request? Will 
there be further delays in the NPOESS satellite due to this cut?

A1. The $74 million in new funding included in the FY 2009 President's 
Budget request for the National Oceanic and Atmospheric Administration 
(NOAA) is intended to support the reinstatement of several key climate 
measurement capabilities that once were part of the tri-agency National 
Polar-Orbiting Operational Environmental Satellite System (NPOESS) 
effort, but were removed from the planned NPOESS satellites during the 
2006 restructuring of the program. In particular, this funding will be 
used to sustain the data sets for three high-priority climate-related 
measurements: total solar irradiance (measured by the Total Solar 
Irradiance Sensor, or TSIS); Earth radiation budget data (from the 
Clouds and Earth Radiant Energy System sensor, or CERES); and ozone 
vertical profile data (from the Ozone Mapping and Profiler Suite Limb 
sensor, or OMPS-Limb). The TSIS and CERES measurements contribute to 
long-term climate records that are vital to discriminating between 
natural and human causes of climate change and to monitoring long-term 
shifts in the energy budget that forces climate change. The OMPS-Limb 
data are important for monitoring ozone structure and depletion 
vertically in the atmosphere and thus to our understanding of the ozone 
recovery process and related phenomena.
    The $74 million in funding allocated for this climate sensor 
package does not represent a budgetary cut, but rather represents 
funding that has been added to NOAA's request specifically for this 
purpose. The Administration believes that NOAA is well-positioned to 
use these funds in programmatic actions for sustaining these valuable 
data sets. No delays for the NPOESS satellites themselves are 
anticipated as a result of this action.

Q2.  In your written testimony, you state that the FY09 budget request 
for the Climate Change Science Program (CCSP) is $2 billion, but that 
the overall spending on climate change policies, science, technology, 
international assistance and tax incentives is almost $9 billion. 
Subtracting the $2 billion for CCSP--half of which goes to NASA for the 
satellites--can you please provide a detailed accounting of how the 
other $7 billion is being spent? Please also provide a detailed 
accounting of how the $4 billion for the CCSP program is to be 
distributed.

A2. The distribution of the $2.08 billion requested for the Climate 
Change Science Program is shown in this table. Details for each agency 
are not available and may be obtained from the agency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The summary of distributions for the climate change expenditures is 
shown in this figure:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    By the end of this Administration, the President will have spent 
almost $45 billion on climate change programs. In addition, the 2009 
Budget requests a record additional $8.6 billion--a +9 percent increase 
over 2008 enacted spending levels--to support climate change-related 
research, development, and deployment programs, voluntary partnerships, 
and international aid efforts.

        <bullet>  Climate Change Science. The FY 2009 Budget proposes 
        $2.1 billion for the Climate Change Science Program, an 
        increase of +12 percent over 2008 enacted, including a +12 
        percent increase for NASA's Science Program.

        <bullet>  Climate Change Technology. The Climate Change 
        Technology Program (CCTP) is coordinated by the Department of 
        Energy. The 2009 Budget proposes $4.4 billion for CCTP 
        activities, an increase of +3 percent over 2008 enacted 
        spending. This includes a +67 percent increase for DOE research 
        on fusion, carbon sequestration, and hydrogen, and a +22 
        percent increase for energy efficiency and sequestration pilot 
        projects.

        <bullet>  International Assistance. These programs support 
        developing countries' efforts to address climate change through 
        improved energy efficiency and renewable energy, land use, and 
        forestry practices. Proposed spending in the 2009 Budget 
        increased +225 percent from 2008 to $657 million, due largely 
        to a new international Clean Technology Fund to provide 
        financing to the developing world for investments in cleaner 
        technologies.

        <bullet>  Energy Tax Provisions. This category includes tax 
        incentives for investments in certain energy technologies. 
        These incentives promote deployment of energy efficient or 
        alternative energy technologies. The value of these tax 
        incentives in the 2009 President's Budget total $6.0 billion 
        over the years 2009-2013, a +19 percent increase from 2008 
        enacted levels.

Q3.  Since the President's Vision for Space Exploration was announced 
in January 2004, the cumulative effects of subsequent NASA budget 
requests and a continuing resolution have caused the operational date 
of the Constellation system to slip to March of 2015. The FY09 budget 
request seeks funding that only maintains an initial operational 
capability by March 2015. Hence, the Administration does not endeavor 
to accelerate development of Ares/Orion, and as a result, the United 
States will be reliant on the Russians for access to ISS for at least 
five years. Why is the Administration reluctant to propose additional 
funding to close the gap?

A3. While NASA has committed to an Initial Operational Capability (IOC) 
of the Orion Crew Exploration Vehicle and its associated Ares I Crew 
Launch Vehicle by March 2015, it is our understanding that NASA is 
targeting an aggressive schedule with an IOC potentially as early as 
September 2013 albeit at a reduced cost confidence level. The 
President's FY 2009 Budget request for NASA, which increases 
exploration funding by 11 percent, supports NASA's current Orion/Ares 
program development plans in terms of achieving IOC by the March 2015 
date with a 65 percent cost confidence.
    With regard to budgetary resources, it is important to note that 
the Vision for Space Exploration calls for a ``sustained and 
affordable'' program of space exploration, and the Administration's 
approach has been for NASA to proceed with exploration activities and 
missions as it can afford to pay for them. At the same time, an over-
arching Administration goal with respect to NASA is to maintain 
sufficiently robust programs (in the context of program requirements 
and Presidential priorities) across the range of NASA mission areas and 
activities, including not only human space flight activities but also 
areas such as Earth and space science and aeronautics. The President's 
FY 2009 Budget request is consistent with this objective, calling for a 
total of $17.61 billion (a 2.9 percent increase over the FY 2008 
enacted level), with almost a third of this amount allocated to science 
activities. Our view is that this request reflects a strong commitment 
by the Administration both to the exploration vision and a vigorous 
NASA science program, while also seeking to reinforce the foundational 
R&D capabilities necessary for long-term technical excellence and 
success in aeronautics. In light of this over-arching budgetary 
objective and other non-NASA fiscal demands, the Administration 
considers the amount requested for NASA exploration activities, as well 
as for NASA overall, to be appropriate and reasonable.

Q4.  The Administration is aware that the Iran, North Korea, Syria Non-
proliferation Act (INKSNA) prohibits NASA from making cash purchases 
from Russia after 2011. NASA's FY09 budget request includes $2.6 
billion to purchase ISS transportation services through 2013. In order 
for NASA to purchase Soyuz flights after 2011, Congress must amend the 
INKSNA. Does the Administration plan to seek an amendment for INKSNA? 
If so, when should Congress expect to receive the request?

A4. This is an important issue, and OSTP is working closely with NASA 
and other appropriate offices and agencies to coordinate the 
Administration's views and next steps on this subject. We expect this 
coordination process to be completed soon.

Questions submitted by Representative David Wu

Q1.  Does the Administration think our small and medium manufacturing 
base is important? The MEP is the only federal program to assist our 
small and medium-sized manufacturers. In my district, and I believe in 
every Congressional district, we hear from this community that their #1 
priority is to maintain full funding for MEP.

        <bullet>  Dr. Marburger, what should I tell these groups? Why 
        do their priorities fall on deaf ears in this Administration? 
        What priority do you give to our small manufacturing base?

A1. Certainly the prosperity and health of the small and medium 
manufacturing base is important for U.S. competitiveness. However, 
programs that provide direct support for the private sector should be 
funded, when possible, by the private sector and not by the government. 
In the case of MEP, the government is providing consulting services 
that are available concurrently from commercial entities. Originally 
targeted at small firms, MEP centers now also serve many larger firms 
that do not need federally-subsidized consulting advice. Given the 
substantial benefits that MEP clients receive from the program, these 
clients have both a profit incentive and the means to obtain these 
services from the private sector. In an environment of limited 
resources, choices such as this help ensure the taxpayers' money is 
used optimally to achieve the maximum positive impact. It is the 
Administration's judgment that the NIST core budget is a higher 
priority than NIST extramural programs like MEP.

Questions submitted by Representative Daniel Lipinski

Fermilab

Q1.  The President's budget request for the federal agencies 
encompassed in the American Competitiveness Initiative (ACI) appears to 
place a high priority on investment in the Nation's scientific 
enterprise. However, a close reading of the budget shows that this 
funding comes at the expense of some 151 federal programs that the 
President proposes on paper to reduce or eliminate for savings of $18 
billion that can be invested in Administration priorities.

        <bullet>  Illinois is home to two DOE national laboratories--
        the Fermi National Accelerator Laboratory (Fermilab) and 
        Argonne National Laboratory.

        <bullet>  Fermilab is the Nation's only national laboratory 
        devoted to studying particle physics. When Congress restored 
        funding to many programs the President proposed to cut or 
        eliminate in the FY 2008 omnibus appropriations bill, there was 
        not enough money to fund the ACI. DOE's High Energy Physics 
        program, which funds Fermilab, was cut by eight percent below 
        the FY 2007 level--a real cut with real consequences.

        <bullet>  On February 1st, Fermilab began unpaid rolling 
        furloughs of its 1900 scientists, engineers, technicians and 
        support staff. On February 5th, Fermilab began the process of 
        laying off 200 people from the lab given the budget for FY 2008 
        and outlook into FY 2009. We are losing the best and brightest 
        scientists and sending a chilling message to our university 
        students choosing a career path when we need more scientists.

        <bullet>  This is a repeat of the FY 2008 budget all over 
        again. Are the President and the Administration serious about 
        investing in the Nation's scientific enterprise and making the 
        ACI a reality?

A1. The President and the Administration are absolutely committed to 
making the ACI a reality. In his 2008 State of the Union speech, 
President Bush renewed his call to implement the American 
Competitiveness Initiative now, stating:

         ``To keep America competitive into the future, we must trust 
        in the skill of our scientists and engineers and empower them 
        to pursue the breakthroughs of tomorrow. Last year, Congress 
        passed legislation supporting the American Competitiveness 
        Initiative, but never followed through with the funding. This 
        funding is essential to keeping our scientific edge. So I ask 
        Congress to double federal support for critical basic research 
        in the physical sciences and ensure America remains the most 
        dynamic Nation on Earth.''

    Unfortunately, the 2008 omnibus appropriations bill drastically cut 
proposed ACI civilian research, funding only one-third of the 
President's requested increase. In addition, Congress directed over 
half of the enacted increase ($207 million of a total $403 million 
increase) to earmarks and an unrequested new grants program. This 
significantly impairs and delays the Administration's efforts to 
strengthen long-term U.S. economic growth and competitiveness. The 
increased funding would enable scientists to further explore promising 
and critical areas such as nanotechnology, supercomputing, and 
alternative energy sources. President Bush's call for doubling these 
basic research levels has been endorsed by Congress, which fully 
authorized his ACI research increases in the bipartisan America 
COMPETES Act (Public Law 110-69), and is supported by a broad coalition 
of business and academic leaders in the ``American Innovation 
Proclamation'' (http://futureofinnovation.org/media/Proclamation-
FINAL.pdf). The President's FY 2009 Budget returns ACI civilian 
research to a doubling path to ensure this consensus national priority 
objective is realized.

Q2.  High Energy Physics is an international field with great 
collaboration. The field will soon be focused on the Large Hadron 
Collider coming into operation in Switzerland and operations at the 
Tevatron at Fermilab will wind down by the end of the decade.

     What is the Administration doing to help minimize the impacts of 
the final FY 2008 budget for Fermilab? What can we do together to 
reduce the serious impacts on Fermilab and our other research 
laboratories and facilities?

A2. The Administration is very concerned about the impacts of the FY 
2008 budget on Fermilab and on other research laboratories and 
facilities. The impacts of the FY 2008 budget have been severe, 
particularly for Fermilab and the High Energy Physics community. The FY 
2008 budget allocates $688 million for the DOE/HEP, which supports 
Fermilab. This represents a funding cut of six percent compared to FY 
2007. Representative Lipinski has already described the impacts of 
these cuts, including a large number of layoffs and unpaid rolling 
furloughs for all employees. The President's FY 2009 Budget includes 
$805 million for DOE/HEP, an increase of 17 percent over FY 2008. This 
proposal focuses on supporting operations and facility improvements at 
Fermilab, preserving the U.S. leadership roll in the Large Hadron 
Collider collaboration, fulfilling our commitments on international 
collaborations, and investing in research and technology that will 
position the U.S. to regain and preserve leadership in the field of 
High Energy Physics for the future. The serious impacts of the FY 2008 
budget can be reduced by passage of the President's FY 2009 Budget.

Q3.  The future for Fermilab belongs in new projects, which must be 
accelerated, including the NOvA neutrino program done jointly with 
Fermilab and the State of Minnesota and a new project (Project X) which 
will pave the way to develop the technology for the proposed 
International Linear Collider. What is the Administration's commitment 
to these future programs for Fermilab in the FY 2009 budget?

A3. The Administration is committed to investing in a program that is 
scientifically productive and in technology development that will 
enable the U.S. to maintain a High Energy Physics program that is 
internationally vital. The DOE has charged its Particle Physics Project 
Prioritization Panel (P5) with developing a 10-year strategic plan for 
an optimum science program within the constraints of a limited budget. 
Since Fermilab is the only dedicated national facility for DOE Office 
of High Energy Physics (HEP), this strategic plan is particularly 
important for defining its role in the national and international 
context.
    The President's FY 2009 Budget includes $65 million for the NuMI 
Off-axis Neutrino Appearance Detector (NOvA). There is no funding 
explicitly requested for Project X since it is still being defined. The 
FY 2009 budget restores funding for International Linear Collider (ILC) 
R&D. Funding designated for technology development in support of the 
ILC and funding for superconducting radio frequency (RF) technology are 
both investments in the U.S. capabilities. These help preserve U.S. 
leadership in the field and the option for a future the next 
administration to host the next collider. This request fully supports 
Fermilab's ability to plan for the future even though that future is 
strongly tied to the strategic planning efforts of the HEP community 
via P5.

Nanotechnology

Q4.  Although the FY09 budget request provides funding increases for 
some R&D agencies, it has curious inconsistencies. One significant 
inconsistency is the funding proposal for the National Nanotechnology 
Initiative (NNI), which arguably involves the most cutting edge science 
and technology and is critical for our future technological strength. 
Under this budget proposal, NNI funding would stagnate, receiving an 
increase of only two percent above FY08.

     This budget proposal, which provides an increase below inflation, 
would effectively result in a reduction in the level of effort for 
nanotechnology research. How is this consistent with the goal of 
strengthening U.S. innovation and competitiveness, and how do you 
justify it in a year in which the Administration is trumpeting its 
support for research in the physical sciences and engineering?

A4. The President's FY 2009 Budget provides over $1.5 billion for the 
National Nanotechnology Initiative (NNI), over three times the level of 
investment at the beginning of this Administration, bringing the total 
since the NNI was established in 2001 to nearly $10 billion. This 
sustained investment is advancing our understanding of the unique 
phenomena and processes that occur at the nanometer scale and 
expediting the responsible use of this knowledge to achieve advances in 
medicine, manufacturing, information technology, and energy and 
environmental technologies.
    This budget request for nanotechnology reflects its high priority 
among interagency R&D areas, and includes increases for nanotechnology 
R&D within the National Science Foundation, Department of Energy, 
National Institute of Standards and Technology (in the Department of 
Commerce), the National Aeronautics and Space Administration and 
Environmental Protection Agency. The budget request for the Department 
of Defense declines by $112 million relative to 2008 primarily because 
the Administration does not request funding for the numerous earmarks 
that Congress added in this area.\1\ (The Administration prefers 
instead to award research funds based on merit review through a 
competitive process refereed by scientists themselves. Such a system 
has the best prospects for ensuring that the highest quality research 
is supported.)
---------------------------------------------------------------------------
    \1\ In addition, because ``nanotechnology'' is not a separate 
budget item, DOD programs are driven by performance goals, not the 
means by which those are achieved. As a result, the amount within DOD 
programs that will be spent on nanotechnology-related R&D in the future 
can only be roughly estimated. In fact, DOD is generally conservative 
in its estimate and in the past has spent more than it proposed for a 
given year.
---------------------------------------------------------------------------
    While the total NNI budget increase over FY 2008 is about 2.4 
percent, the increase targeted for physical sciences at NSF, NIST, and 
DOE is a substantial 11 percent, and seeks to restore funding in FY 
2008 that was expected to be much higher ($80 million more for DOE 
alone) as part of the American Competitiveness Initiative (ACI). This 
increased support for basic research in the physical sciences is 
essential to progress across the National Nanotechnology Initiative.
    Ultimately both Congress and the Administration must fit funding 
within a discretionary budget that has limits. Looking at overall 
funding for the NNI relative to other areas, it is clear that the 
direction of the requests for the NNI over the course of this 
Administration has been consistent with the President's commitment and 
congressional intent to support American competitiveness.

Q5.  The National Science and Technology Council, which you chair, is 
charged with setting overall goals and priorities for interagency R&D 
initiatives, such as the NNI. Does the FY09 budget request for the NNI 
result from a conscious decision by the agencies represented on the 
NSTC to reduce the level of effort in this area of research? If so, 
what are the reasons for the de-emphasis, and if not, how did this 
budget request come about?

A5. See answer to question one above regard funding levels--the level 
of effort in nano research is not being reduced--it is being increased 
government-wide and particularly within the priority ACI agencies. The 
process associated with developing R&D budgets is a collaborative one 
involving agencies working with the OMB and OSTP.

DOE Office of Science Labs

Q6.  The DOE Office of Science is the steward for several very large-
scale experimental and scientific facilities around the country, some 
of which can cost hundreds of millions or more to build, and tens of 
millions in annual operational costs. Argonne and Fermilabs are two 
such examples, both of which help to greatly stimulate the economy of 
Illinois and the Midwest. But, these facilities are often used for non-
energy research by other agencies such as NIH, DOD, NSF, and private 
industry for what amounts to nominal compensation.

     Given your call to diversify funding sources for research, is the 
current scheme adequate for the dual goals of encouraging diverse, 
productive use of these facilities and recovering significant 
operational costs? Or should DOE continue to bear the brunt of 
responsibility for others' research?

A6. One of the most important missions the Office of Science carries 
out on behalf of the entire U.S. research community is designing, 
building and operating many of this country's largest scientific user 
facilities. Scientists are awarded time on these facilities based on 
the strength of the science they propose to do--regardless of whether 
they come from government labs, academia or industry and regardless of 
whether they are directly supported by DOE or other agencies. Argonne 
and Fermilab, alone, support approximately 6,000 visiting researchers 
per year who use those labs' particle beams and colliders, nuclear 
physics accelerators, x-ray synchrotron light sources, nanoscience 
centers and supercomputers.
    In cases where the Office of Science is the source of 90 percent or 
more of total federal funding for a discovery-oriented field, such as 
nuclear physics and particle physics, recovery of operational costs 
would not result in more efficient or effective use of taxpayer 
resources. Support of these two fields is a shared responsibility of 
NSF and the Office of Science. The federal investments in these fields 
are coordinated through two committees that advise both agencies: the 
High Energy Physics Advisory Panel and the Nuclear Sciences Advisory 
Panel. About 40 percent of the 6,000 users at Argonne and Fermilab are 
using high energy or nuclear physics machines. There are two distinct 
areas in which foreign collaborators have contributed (cash or in-kind) 
to the Tevatron Collider program: detector and upgrade construction, 
and ongoing support of detector operations and software and computing 
for data storage and analysis. Foreign collaborators have contributed 
over $100 million in capital equipment for detector fabrication and 
upgrades and about $8 million per year in ongoing support for 
operations and computing.
    In other fields, the Office of Science may not be the dominate 
source of research funding as it is in particle or nuclear physics, but 
it does have a mission to operate the majority of large national 
facilities. X-ray synchrotron light sources are one example. The Office 
of Science operates four of the Nation's six synchrotrons operating as 
user facilities, and DOE facilities are the site of 178 of the 212 
beamlines in the Nation. Of those 178 beamlines, 96 receive full 
operational support from the Office of Science. The other major 
operational support is provided by NIH (21 beamlines), universities (22 
beamlines), and industry (21 beamlines). Research institutes, NSF, 
Department of Commerce, and DOE EE/EM also support three to five 
beamlines each. When researchers use these beamlines to conduct 
proprietary research not published in the open literature, DOE charges 
full cost recovery. In most cases, that is a very small proportion of 
any facility's budget. As an example, revenue recovered for proprietary 
research at Argonne's Advanced Photon Source in FY 2007 represents two 
percent of the total facility budget.
    A 1999 National Academies report entitled, ``Cooperative 
Stewardship: Managing the Nation's Multi-disciplinary User Facilities 
for Research with Synchrotron Radiation, Neutrons, and High Magnetic 
Fields,'' describes this most efficient and effective model for 
operating these national resources--that is the funding of the core 
operations under the stewardship of one agency. Scientific user 
facilities are generally characterized by large fixed costs and their 
operations become unstable when those fixed costs are spread over a 
diverse base of uses. The cooperative stewardship model does allow for 
shared investment by partner agencies, and DOE's partners have a 
successful track record of making those shared investments.
    The recovery of operational costs from users is not a goal of this 
Administration. Rather, the Administration believes that maximizing the 
scientific and technological return on the Nation's existing scientific 
infrastructure should be one of the highest priorities for our R&D 
investment to protect our global scientific and economic leadership. 
That is why the President proposed the ACI and wants to see it fully 
funded.

                                   <all>


</pre></body></html>
